                             SOCIAL SECURITY


                                      April 3, 2006

The Honorable Charles E. Grassley
Chairman, Committee on Finance
United States Senate
Washington, D.C. 20510

Dear Mr. Chairman:

I am pleased to provide the information you requested in your September 4, 2003 letter.
The enclosed report provides information from our review of the Social Security
Administration’s disability programs—including overpayment rates and an analysis of
four specific diagnosis groups.

If you have any questions or would like to be briefed on this issue, please call me or
have your staff contact H. Douglas Cunningham, Assistant Inspector General for
Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                                Sincerely,


                                                S
                                                Patrick P. O’Carroll, Jr.
                                                Inspector General



Enclosure

cc:
Jo Anne B. Barnhart, Commissioner




            SOCIAL SECURITY ADMINISTRATION            BALTIMORE MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

       Overpayments in the
 Social Security Administration’s
       Disability Programs
           A-01-04-24065




            April 2006
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                               Executive Summary
OBJECTIVE
Our objective was to address Senator Charles Grassley’s September 2003 request for
(1) an audit to focus on producing an improper payment rate for the Social Security
Administration’s (SSA) disability programs and (2) an analysis of the improper payment
prevalence in four diagnosis groups (mental disorders; musculoskeletal system
diseases; endocrine, nutritional and metabolic diseases; and injuries).

BACKGROUND
We obtained a file of 11.1 million individuals who were receiving disability benefits as of
October 2003. After removing records for individuals age 62 or over and those where
their medical diagnosis codes were not in SSA’s records, the population was reduced to
8.9 million beneficiaries—representing about 80 percent of the 11.1 million
beneficiaries. From the population of 8.9 million beneficiaries, including all diagnosis
groups, we selected a sample of 1,532 beneficiaries.

When SSA calculates payment accuracy rates, it follows Office of Management and
Budget (OMB) guidance on what type of payments to include in the rates. The Senator
requested a statistically valid improper payment rate for SSA’s disability programs
without following OMB guidance. As a result, our review of all aspects of eligibility—
medical and non-medical—is not directly comparable to any business process SSA has
in place. For this report, we developed overpayment rates on the basis that—for any
medical or non-medical reason—the Agency assessed an overpayment, would have
assessed an overpayment, or would not have issued a payment given perfect
knowledge of all the facts.

RESULTS OF REVIEW
Our analysis of SSA data resulted in a four-pronged approach to respond to Senator
Grassley’s request. We (1) quantified overpayments; (2) developed overpayment rates;
(3) analyzed payments in four diagnosis groups; and (4) quantified benefits to
potentially ineligible beneficiaries—such as those no longer disabled because of
medical improvement.

First, based on our sample, we estimated the amount of overpayments occurring
between October 2003 and November 2005 as a result of conditions that existed as of
October 2003 or earlier. Specifically, SSA
    • detected, through its normal processes, overpayments totaling about $1.9 billion.
    • had not yet detected overpayments totaling approximately $3.2 billion.

Secondly, we developed overpayment rates. To calculate a statistically valid
overpayment rate, the total amount of overpayments made in a given year should be


Overpayments in SSA’s Disability Programs (A-01-04-24065)                                 i
compared to the total payments issued during that same year. However, overpayments
made in a given year—such as Fiscal Year (FY) 2004—may not be identified by SSA
until FY 2005 or beyond. Because of this large span of time, the complexity of SSA’s
programs, limited available data, and SSA’s reliance on others to report changes that
impact eligibility, we developed several rates. Our analysis indicates that the
overpayment rate is about 3.2 percent of payments. However, the precise rate may fall
between 3.2 and 3.6 percent.

Although we believe the overpayment rate is between 3.2 and 3.6 percent of benefits
paid, the rate could be as high as 5.2 percent. This higher rate represents the
percentage of benefits the Agency would not have paid if it had perfect knowledge of all
conditions affecting eligibility at the time the payments were issued. (See Appendix F,
Tables F-18, F-19, and F-20 for a full description of the rates.)

Thirdly, where SSA did not already have information indicating possible payment
issues, we conducted further analysis. We found that 55 percent of the overpayments
and payments issued to ineligible beneficiaries were in the four diagnosis groups.
Similarly, in SSA’s general disability population, 54 percent of beneficiaries were in
these same four diagnosis groups.

Lastly, we estimated about $2.1 billion in benefits were paid to potentially ineligible
beneficiaries. This estimate of annual payments to ineligible beneficiaries was based
on our sample cases where SSA stopped benefits during our review due to continuing
disability reviews (CDR), income, prison/fugitive status, failure to cooperate, inability to
locate, etc. Medical improvement was one of the main reasons beneficiaries became
ineligible in our sample. According to the Agency’s most recent annual CDR report to
Congress, savings-to-cost ratios for the 8 FYs 1996 through 2003 averaged about
$10.2 to $1.

At our request, SSA initiated medical CDRs for 105 beneficiaries in our sample, and
12 cases (or 11 percent) had benefits stopped because they were no longer disabled.
Although these CDRs may have been conducted at some future date, the savings
realized by immediately discontinuing payments to individuals who were no longer
disabled would not have occurred had we not requested these CDRs. Therefore, SSA
would have continued to pay these individuals until such time that a CDR showing
medical improvement was completed.

CONCLUSION
Although our review of medical and non-medical factors could not provide a perfectly
developed statistically valid overpayment rate, we believe the results of our analysis
provide a point-of-time estimate of the amount of overpayments and payments SSA
should not have made to ineligible disability beneficiaries. Further, it provides
Congress, SSA and other decision-makers valuable information for making policy
decisions—such as whether to provide additional resources for activities related to
preventing overpayments and stopping benefit payments to individuals who are no
longer eligible for them.


Overpayments in SSA’s Disability Programs (A-01-04-24065)                                      ii
                                                                       Table of Contents
                                                                                                                  Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................4

Overpayments .........................................................................................................4

Overpayment Rates ................................................................................................7

Four Diagnosis Groups ...........................................................................................8

Payments Stopped to Ineligible Beneficiaries .........................................................9

CONCLUSION ......................................................................................................12

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Background

APPENDIX C – The Continuing Disability Review Process

APPENDIX D – Senator Grassley’s September 2003 Request

APPENDIX E – OIG’s Initial Response to Senator Grassley’s Request—Dated
             October 15, 2003

APPENDIX F – Scope, Sampling Methodology and Results

APPENDIX G – Reasons Why Sampled Beneficiaries Were Overpaid or Became
             Ineligible for Payments




Overpayments in SSA’s Disability Programs (A-01-04-24065)
                                                                         Introduction
OBJECTIVE
Our objective was to address Senator Charles Grassley’s September 2003 request for
(1) an audit to focus on producing an improper payment rate for the Social Security
Administration’s (SSA) disability programs and (2) an analysis of the improper payment
prevalence in four diagnosis groups. 1

BACKGROUND
When SSA measures payment accuracy for the Old-Age, Survivors and Disability
Insurance and Supplemental Security Income (SSI) programs, the Agency does not
count some payment errors that result from limitations in the Agency’s computer
systems and/or limitations placed on SSA by law. 2 The Office of Management and
Budget (OMB) provided SSA with specific guidance not to include certain items in its
improper payment estimates. In addition, SSA does not include payment errors based
on medical factors of eligibility when calculating payment accuracy. 3 (See
Appendices B and C for additional information.)

Senator Grassley requested a statistically valid improper payment rate for SSA’s
Disability Insurance (DI) program and a separate improper payment rate for the
Agency’s SSI program, without following OMB guidance. As a result, our review of all
aspects of eligibility—medical and non-medical—for the sampled beneficiaries is not
directly comparable to any business process SSA has in place. Furthermore, while
SSA makes an initial eligibility decision based on all medical and non-medical factors
when an individual is first placed on the disability rolls, there is no post-entitlement
review that incorporates both aspects simultaneously. Likewise, there is no SSA quality
review incorporating both medical and non-medical factors. (See Appendix D for the
Senator’s full request, Appendix E for the interim response we provided him on
October 15, 2003, and Appendix F for additional information on the scope, sampling
methodology and results of our review.)



1
 Senator Grassley also requested information on SSA’s Cooperative Disability Investigations programs.
We provided this to him on October 15, 2003 (see Appendix E).
2
  Under The Improper Payments Information Act of 2002 (Pub. L. No. 107-300, 31 U.S.C. § 3321),
Federal agencies—including SSA—must report annually on the extent of improper payments in its
programs that are susceptible to significant improper payments. The Government Accountability Office
(GAO) defines improper payments as payments that should not have been made or that were made for
incorrect amounts. (GAO, Strategies To Manage Improper Payments, Learning From Public and Private
Sector Organizations (GAO-02-69G), p. 1, October 2001.) The President’s Management Agenda also
includes an initiative to reduce erroneous payments in the Federal Government.
3
    SSA, Performance Plan for FY 2006, pp. 25-27, February 2005.


Overpayments in SSA’s Disability Programs (A-01-04-24065)                                               1
We obtained a file of the 11.1 million individuals who were receiving disability benefits
as of October 2003. After removing records for individuals age 62 or over 4 and those
whose medical diagnosis codes were not in SSA’s records, the population was reduced
to 8.9 million beneficiaries (or about 80 percent of all 11.1 million disabled
beneficiaries). 5 From the population of 8.9 million records, which included all diagnosis
groups, we selected a sample of 1,532 beneficiaries.

We established our sample based on the beneficiaries’ disabilities to be able to analyze
four specific diagnosis groups—and not the type of payment (DI or SSI), and we were
unable to report on each program separately. Therefore, although Senator Grassley
requested separate improper payment rates for the DI and SSI programs, we calculated
rates for both programs combined. Additionally, we developed overpayment rates on
the basis that—for any medical or non-medical reason—the Agency assessed an
overpayment, would have assessed an overpayment, or would not have issued a
payment given perfect knowledge of all the facts. (See Tables F-18, F-19, and F-20 in
Appendix F for a full description of these rates.)

Included in Senator Grassley’s September 4, 2003 letter to SSA’s Inspector General
was a request to conduct further analysis of the improper payment prevalence in the
diagnosis groups below:

       1.    Mental disorders other than mental retardation;
       2.    Diseases of the musculoskeletal system;
       3.    Endocrine, nutritional, and metabolic diseases; and
       4.    Injuries.

SSA’s definition of disability requires that an individual’s inability to work must be related
to a medically determinable physical or mental impairment(s). 6 Every physical or
mental impairment is categorized into 1 of the 16 body systems listed below: 7

        1.   Musculoskeletal System
        2.   Special Senses and Speech (vision and hearing)
        3.   Respiratory System
        4.   Cardiovascular System
        5.   Digestive System

4
 An individual can start to receive Social Security retirement benefits as early as age 62—SSA, Program
Operations Manual System (POMS), RS 00201.001 A.
5
 We obtained a new file of all beneficiaries in current payment status on SSA's records as of June 2005
and compared this information to our data from October 2003. This new file included almost 1.9 million
beneficiaries who were in current payment status in June 2005 but were not in current payment status on
SSA’s records in October 2003.
6
    Social Security Act § 216(i)(1), 42 U.S.C. § 416(i)(1).
7
    SSA, POMS, DI 26510.015 F. The 4 diagnosis groups are subsets of the 16 body systems.



Overpayments in SSA’s Disability Programs (A-01-04-24065)                                             2
    6. Genito-Urinary System
    7. Hematological (blood) Disorders
    8. Skin Disorders
    9. Endocrine System (Diabetes)
    10. Multiple Body Systems (Down Syndrome)
    11. Neurological
    12. Mental Disorders
    13. Malignant Neoplastic Diseases (Cancer)
    14. Immune System
    15. Growth Impairment (for children)
    16. Special/Other

SSA has undertaken a number of key initiatives to identify and prevent overpayments—
including reviews of continuing DI and SSI eligibility and data matches to detect income,
deaths, prisoners, fugitives, and other issues that impact eligibility. In addition, SSA has
made significant efforts over the past several years to increase the recovery of
overpayments.

The continuing disability review (CDR) process is the primary method by which SSA
identifies beneficiaries who are no longer eligible to receive disability benefits. A CDR
includes confirming that the beneficiary is alive, investigating any indications of work
activity, and determining whether a person's impairment has significantly improved
since the most recent favorable determination. According to the Agency’s annual CDR
report to Congress (issued in October 2005), savings-to-cost ratios for the 8 Fiscal
Years (FY) 1996 through 2003 averaged about $10.2 to $1.

In the course of our review, we asked for assistance from SSA in conducting medical
CDRs, investigating income and work activity, locating beneficiaries and reviewing non-
medical eligibility requirements. For the purpose of this review, we did not consider a
beneficiary as having a payment issue unless SSA took action to assess an
overpayment or stop benefits because of our review. The payments to ineligible
beneficiaries are the amounts that would have been paid to the beneficiaries if SSA had
not stopped paying benefits to individuals who were no longer eligible to receive them—
beginning with the first month of non-payment. Our calculation for payments to
ineligible beneficiaries is based on the amount of the last monthly payment issued
multiplied by 12 months.




Overpayments in SSA’s Disability Programs (A-01-04-24065)                                   3
                                                           Results of Review
Our analysis of SSA data resulted in a four-pronged approach to respond to Senator
Grassley’s request. We (1) quantified overpayments; (2) developed overpayment rates;
(3) analyzed payments in four diagnosis groups; and (4) quantified benefits to
potentially ineligible beneficiaries—such as those no longer disabled because of
medical improvement.

We estimate from our sample that SSA (a) detected, through its normal processes,
overpayments totaling about $1.9 billion; and (b) had not yet detected overpayments
totaling approximately $3.2 billion. Furthermore, we believe—based on certain
assumptions and available data—that between 3.2 and 3.6 percent of disability benefits
would ultimately result in payment issues that would require SSA to either stop benefits
and/or assess overpayments.
                                                                       Sample Results
Our review of 1,532 sample cases                                                            1,238 paid
found that:                                                                                 appropriately
  • 1,238 beneficiaries were paid                                                           (80.8%)

     appropriately.                                292 with
                                                   either
     •   292 beneficiaries were overpaid,          overpayments,
         had payments stopped because              payments
         they were no longer eligible, or          stopped
                                                   to ineligible
         both totaling about $2.5 million. 8       beneficiaries, or
     •   2 beneficiaries’ cases were under         both (19.1%)
         review as of March 2006. 9                                               2 pending (0.1%)


OVERPAYMENTS

Based on our sample cases, we estimate $5.1 billion was overpaid in SSA’s disability
programs. These overpayments represent funds that should not have been paid over a
span of time (from 1 month to several years). Specifically, we estimate that—between
October 2003 and November 2005 for conditions that existed as of October 2003 or
earlier—SSA
     •   detected overpayments for about 685,200 beneficiaries (from the population of
         8.9 million beneficiaries) totaling approximately $1.9 billion through its normal
         business processes.



8
 Of the 292 beneficiaries, 92 had overpayments, 157 had payments stopped due to ineligibility, and
43 had both. (See Tables F-1, F-2, F-3, F-4 and F-5 in Appendix F for further analyses of the sample
cases.)
9
    SSA is completing CDRs for these two cases.



Overpayments in SSA’s Disability Programs (A-01-04-24065)                                                   4
     •   had not yet detected overpayments for about 104,500 beneficiaries totaling
         approximately $3.2 billion that existed at the time of our review. 10

The overpayments (per beneficiary) identified by the OIG (and not SSA) tended to be
much larger and spanned longer periods of time than the overpayments identified by
SSA’s normal processes. Additionally, the overpayments identified by the OIG tended
to take longer to detect than the overpayments identified by SSA—as shown in the
charts below and in Table F-2 in Appendix F.


         Overpayments Identified by SSA -                       Overpayments Identified by OIG -
            Length of Time to Detect                               Length of Time to Detect

1 to 25 months                                            1 to 25 months
86 Cases (73%)                                            5 Cases (28%)




                Over 50 months       26 to 50 months       Over 50 months                  26 to 50 months
                 6 Cases (5%)        26 Cases (22%)        4 Cases (22%)                   9 Cases (50%)




Income or earnings from work activity was the most significant reason for overpayments
in our sample. 11 This is consistent with two recent OIG reports—Disabled Title II
Beneficiaries with Earnings on the Master Earnings File issued in July 2004 and
Disabled SSI Recipients with Earnings issued in April 2005. Although SSA generally
agreed with our recommendations to improve this area, resources needed to conduct
work CDRs and develop income information for the volume of beneficiaries with
earnings recorded on the Agency’s Master Earnings File was cited as a barrier. 12


10
   Since months or years may elapse before SSA identifies a benefit as having been overpaid, the
Agency may eventually identify these overpayments. To be conservative in our estimate, we did not
include the entire amount of a very large overpayment for one beneficiary that was identified based on the
OIG’s review. SSA assessed an overpayment of $133,316—substantially more than the next highest
overpayment amount for this category. Therefore, in our estimates, we used $89,891—the amount of the
next highest overpayment identified by the OIG’s review. If we had included the $133,316, the estimate
would have increased from $3.2 billion to $3.4 billion. Conversely, if we had excluded this one case
altogether, the estimate would have decreased from $3.2 billion to $2.6 billion.
11
     See Appendix G for additional information on the overpayment reasons.
12
 In FY 2005, SSA implemented eWork—a new initiative to address disabled beneficiaries who work and
may no longer be entitled to benefits.



Overpayments in SSA’s Disability Programs (A-01-04-24065)                                               5
Overpayments        Of the 1,532 sample cases, 135 beneficiaries had
Identified due to   overpayments—which included 18 that were identified as a
OIG’s Review        result of OIG’s review and subsequent request for SSA to take
                    action between October 2003 and November 2005. 13 The
                    overpayments for these 18 beneficiaries spanned different time
periods—from 6 months to over 14 years. 14 Examples of cases with overpayments
include:

     •   One beneficiary with a psychiatric disorder began receiving benefits in
         December 1986. She was overpaid more than $28,000 because she began
         working in 2001—after completing a “Certified Nurse Assistant” program—while
         continuing to receive disability benefits.
     •   One beneficiary and his dependents received more than $47,000 in benefits to
         which they were not entitled from May 2001 to October 2004. Although the
         beneficiary had a history of polio, he was working at a level which made him
         ineligible for benefits. 15

                          As part of our review, we investigated all indications of potential
Overpayments
                          fraud. For example, our investigators determined that one
due to
                          beneficiary in Massachusetts with a history of cancer had
Fraud
                          obtained multiple Social Security numbers and worked under
                          one number while collecting disability benefits under a different
        16
number. In March 2005, this beneficiary was arrested on the Federal charge of theft
of Social Security disability benefits. Between October 1995 and August 2004, he
received approximately $30,796 in disability benefits. A Federal grand jury returned an
indictment charging the beneficiary with one count of theft of public money, property or
records, in violation of Title 18 U.S.C. § 641. The beneficiary pleaded guilty to the
charge, was sentenced in January 2006 to 3 years probation with the first 4 months in
home confinement, and was ordered to pay $30,059 in restitution to SSA.

In July 2005, a beneficiary with osteoarthritis was sentenced to 4 months home
detention and 3 years probation. The judge ordered him to repay over $17,000 in
disability benefits that he received while concealing his work activity from SSA. In
13
     The remaining overpayment cases were identified by SSA’s normal business processes.
14
  The 18 overpayments identified due to the OIG’s review were avoidable within the Agency’s guidelines.
(See Appendix E for the OMB guidance on avoidable and unavoidable overpayments.) These
18 beneficiaries had overpayments assessed during our review due to events which occurred in
October 2003 or earlier. In addition to these 18 beneficiaries, the OIG identified 13 beneficiaries who
were overpaid after October 2003. If we included these overpayments in our estimate, the dollars
overpaid would have increased.
15
 SSA defines disability, in part, as the inability to perform substantial work activity due to a physical or
mental impairment. See 42 U.S.C. § 416(i)(1).
16
  We found similar cases in our review, Individuals Receiving Benefits Under Multiple SSNs at the Same
Address (A-01-05-25002), April 2005.



Overpayments in SSA’s Disability Programs (A-01-04-24065)                                                      6
addition, as of November 2005, the OIG was pursuing three other cases involving
potential fraud for possible prosecution. 17 These beneficiaries have the following
diagnoses: mental disorder, digestive problems, and chronic renal failure.

OVERPAYMENT RATES
To calculate a statistically valid overpayment rate, the total amount of overpayments
made in a given year should be compared to the total payments issued during that
same year. However, overpayments made in a given year—such as FY 2004—may not
be identified by SSA until FY 2005 or beyond. Because of this large span of time, the
complexity of SSA’s programs, limited available data, and SSA’s reliance on others to
report changes that impact eligibility, we calculated three rates based on the available
information. (See Tables F-18, F-19, and F-20 in Appendix F for additional details.)
     •   3.2 percent is based on our sample cases and represents the amount of
         overpayments assessed for FY 2004 due to SSA’s normal processes ($222,289)
         and OIG’s review ($142,754)—which were detected during our review period of
         October 2003 and November 2005—and the amount of payments not issued to
         ineligible beneficiaries in FY 2004 as a result of our review ($59,432). This total
         was compared to the amount of benefits paid to our sampled beneficiaries in
         FY 2004 ($13.1 million).
     •   3.6 percent is based on the amount of overpayments assessed by SSA for
         FY 2004 ($2.9 billion) plus the estimated overpayments for FY 2004 that were not
         detected by the Agency ($0.8 billion) 18 and the estimated payments issued to
         ineligible beneficiaries in FY 2004 as a result of our review ($0.3 billion). These
         amounts were compared to the total DI and SSI payments made in FY 2004
         ($110.4 billion).

Although we believe the overpayment rate is between 3.2 and 3.6 percent of benefits,
the rate could be as high as 5.2 percent. This rate represents the percentage of
benefits the Agency would not have paid if it had perfect knowledge of all conditions
affecting eligibility at the time the payments were issued. The rate was calculated with
the amounts used to develop the 3.6 percent, replacing the $0.3 billion in estimated
payments issued to ineligible beneficiaries in FY 2004 with the estimate of annual
payments to ineligible beneficiaries ($2.0 billion) 19 based on our sample cases where
SSA stopped benefits during our review due to medical CDRs, income, prison/fugitive
status, failure to cooperate, inability to locate, etc. If SSA was able to identify all issues
impacting benefits as soon as they occurred, the Agency would have likely stopped
these benefits sooner.

17
  These cases are included in the 292 cases with overpayments, payments stopped due to ineligibility, or
both. However, the OIG is continuing to investigate the beneficiaries for possible fraud.
18
  These overpayments for FY 2004 would not have been recorded on SSA’s financial statements
because they were not identified until FY 2005.
19
  The $0.3 billion (used in the 3.6 percent rate) is part of the $2.0 billion used in developing the
5.2 percent rate.


Overpayments in SSA’s Disability Programs (A-01-04-24065)                                              7
FOUR DIAGNOSIS GROUPS
The estimated $3.2 billion in overpayments—and the estimated $2.1 billion in payments
to ineligible beneficiaries (described later in the report)—for a total of $5.3 billion are
based on the OIG’s review of 1,532 sample cases and the development of information
that SSA had not taken action on prior to our request to do so. Specifically, of the
292 sample cases (out of the 1,532) with overpayments, payments stopped to ineligible
beneficiaries, or both, SSA identified the payment issues for 245 of the cases based on
information it already had and developed in its normal business processes. However,
SSA did not take action on 47 beneficiaries’ cases to stop benefits or assess an
overpayment until we requested the Agency’s assistance during our review.

As previously noted, income was one of the top reasons for overpayments and
payments to ineligible beneficiaries; and we found that SSA already had
income/earnings information for 14 of the 47 cases recorded on its Master Earnings
File—indicating that these beneficiaries might be working and may no longer be eligible
for disability benefits. However, the Agency did not identify the overpayments and/or
stop benefits prior to our review.

For the remaining 33 beneficiaries, SSA did not have information indicating possible
overpayments or payments to ineligible beneficiaries prior to our review. 20 In these
33 cases, the OIG’s interviews with beneficiaries and third parties, as well as other
research of available information, indicated that these individuals might not be eligible
for benefits. At our request, SSA completed a review of each case and concluded that
these 33 individuals were not eligible for certain benefit payments.

The chart below shows that—for the estimated overpayments and payments to
ineligible beneficiaries based on the 33 cases where the OIG developed information that
SSA did not already have—55 percent of the funds were in the four diagnosis groups.
Similarly, in SSA’s general disability population, 54 percent of beneficiaries were in
these same four diagnosis groups.




20
 This includes 4 cases with earnings due to work activity that had not yet been recorded on SSA’s
Master Earnings File.



Overpayments in SSA’s Disability Programs (A-01-04-24065)                                           8
                         Estimated $5.3 Billion in Overpayments and
                    Payments to Ineligible Beneficiaries due to OIG's Review


                                                                                      Other
                       SSA already       SSA did not
                                                                           Four       Diagnosis
                       had               previously
                                         have                              Diagnosis Groups
                       information                                         Groups     $0.9 billion
                       $3.3 billion      information
                                                                           $1.1         (45%)
                                         $2.0 billion
                                                                           billion
                                                                                (55%)




PAYMENTS STOPPED TO INELIGIBLE BENEFICIARIES
We estimate that SSA prevented about $7.0 billion in payments from being issued to
ineligible beneficiaries through its normal processes. However, we estimate that SSA
did not prevent an additional $2.1 billion in payments from being issued to ineligible
beneficiaries. 21 The Agency could have prevented the majority of these payments if it
had been able to conduct more work or medical CDRs.

Although SSA informs beneficiaries to report to the Agency changes to their
circumstances that could impact benefit payments (such as returning to work),
beneficiaries often fail to do so. Therefore, months or years could elapse before SSA
detects an issue that might impact benefits already paid.

When SSA stops paying benefits to individuals who are no longer eligible for them, the
Agency achieves savings since it no longer has to pay those monthly benefits. From
our sample of 1,532 beneficiaries, 200 became ineligible for benefits during our review.
The top three reasons for individuals becoming ineligible for benefits were: (1) death,
(2) income/work activity, and (3) medical improvement. (See Table G-2 in Appendix G
for additional information on the reasons.)

SSA stopped paying benefits to 76 individuals in our sample because they died. SSA
detected these deaths through its normal processes—indicating that SSA has controls
to identify and prevent payments after death. However, SSA’s efforts to prevent

21
   This estimate was calculated by multiplying the last payment received by 12. We believe 12 months is
reasonable, since only 2 of the 44 beneficiaries used to develop the estimate had benefits suspended
less than 12 months as of March 2006 and could potentially come back on the rolls and reduce the
estimate. (The 2 cases had benefits suspended for 8 and 11 months, respectively.) Furthermore, if we
had used the October 2003 benefit amount, our estimate of $2.1 billion would have decreased to
$2.0 billion. This $2.0 billion was used in developing the 5.2 percent rate described in the prior section of
this report.



Overpayments in SSA’s Disability Programs (A-01-04-24065)                                                   9
overpayments due to beneficiaries’ income exceeding the limits established for eligibility
could be improved. Also, SSA’s disability programs could be strengthened if more
medical CDRs were conducted to determine whether a beneficiary’s impairment has
improved.
                     Upon our request, SSA initiated medical CDRs for
Benefits Stopped     105 beneficiaries; and by November 2005, the Agency had
due to Medical       completed 103 of them. Of the 103 completed medical CDRs,
CDRs                 SSA determined that 12 (or 11 percent) were no longer eligible
                     due to medical improvement and took action to stop the
         22
benefits. We estimated savings associated with the 12 beneficiaries because the
CDRs were conducted earlier than they would have been conducted through the
Agency’s normal business process. 23

For example, one beneficiary with a diagnosis of affective disorders (a psychiatric
impairment) started receiving disability benefits in 1997. OIG investigators observed
activities that seemed inconsistent with the beneficiary’s impairment; and therefore, we
requested that SSA conduct a CDR. As a result of this CDR, SSA found that medical
improvement had occurred and stopped the beneficiary’s benefits—resulting in
12 months of savings of about $6,948. If SSA had not conducted the CDR at the time
of our request, benefits would have continued to be paid to this individual.

Benefits Stopped       Of the 1,532 sample cases, 200 had payments stopped because
due to OIG’s           the beneficiaries were no longer eligible. Of the 200 sample
Review                 cases, 44 beneficiaries had payments stopped because of the
                       OIG’s review and subsequent request for SSA to take action. 24
As of November 2005, SSA terminated benefits for 35 of the 44 beneficiaries. To
resume benefits in the future, these individuals will have to file new applications. For
the remaining 9 beneficiaries, 1 had benefits suspended for only 6 months 25 and 8 had
benefits suspended but not terminated. These benefits could be restarted if the


22
  We requested 105 medical CDRs and 103 had been completed by November 2005—with 2 pending.
For 2 of the 12 cases in which benefits were ceased due to medical improvement, SSA had established
medical review diary dates of October 2003 or earlier. However, SSA did not initiate a CDR until we
requested it in FY 2004. (The medical review diary date is one of many factors used in SSA’s CDR
selection process to predict the probability of medical improvement.)
23
  Of the 12 beneficiaries no longer eligible due to medical improvement, one was appealing the Agency’s
decision to stop benefits as of March 2006.
24
  For the remaining cases, SSA prevented the payments to ineligible beneficiaries through its normal
business processes. In addition to the 44 beneficiaries, 3 others had overpayments identified by the OIG
but did not have their benefits stopped. Therefore, in the previous section on “Four Diagnosis Groups,”
we reported on all 47 cases.
25
   For this one beneficiary, benefits were suspended April through September 2005. Therefore, we
counted only the 6 months as savings—not 12 months as for the remaining cases with payments stopped
to ineligible beneficiaries.



Overpayments in SSA’s Disability Programs (A-01-04-24065)                                             10
beneficiaries take certain actions, such as cooperating with the Agency. 26 The following
table shows the length of time the benefits for these 8 beneficiaries have been
suspended.


                                                              Number of Cases
                      Number of Months in                      with Benefits
                   Suspense—as of March 2006                    Suspended
                         12 or more months                           6
                                 11 months                           1
                                  8 months                           1
                     Total Suspended Cases                           8




26
   If these 8 beneficiaries began receiving benefits again in April 2006, we would only achieve savings
from the month of suspension through March 2006 (as shown in the table). This would cause our overall
payments to ineligible beneficiaries estimate of about $9.1 billion to decrease by approximately
$14 million—as a result of 2 cases having payments stopped for less than 12 months. (See Table F-15 in
Appendix F.)



Overpayments in SSA’s Disability Programs (A-01-04-24065)                                           11
                                                                 Conclusion
Although our review of medical and non-medical factors could not provide a perfectly
developed statistically valid overpayment rate, we calculated overpayment rates based
on the available data. We estimated that between 3.2 and 3.6 percent of disability
benefits would ultimately result in payment issues that would require SSA to either stop
benefits and/or assess an overpayment.

Where SSA did not already have information, the OIG conducted further analysis and
found that 55 percent of overpayments and payments to ineligible beneficiaries were in
the four diagnosis groups. Similarly, in SSA’s general disability population, 54 percent
of beneficiaries were in these same four diagnosis groups.

Our review of all aspects of eligibility—medical and non-medical—provides a point-of-
time estimate of the amount of overpayments and payments SSA should not have made
to ineligible disability beneficiaries. Further, it provides Congress, SSA and other
decision-makers valuable information for making policy decisions—such as whether to
provide additional resources for activities related to preventing overpayments and
stopping benefit payments to individuals who are no longer eligible for them. The OIG
will continue to conduct audits and investigations related to SSA’s disability programs in
an effort to recommend cost-effective solutions for improvements in the disability area.




Overpayments in SSA’s Disability Programs (A-01-04-24065)                              12
                                              Appendices
Appendix A – Acronyms
Appendix B – Background
Appendix C – The Continuing Disability Review Process
Appendix D – Senator Grassley’s September 2003 Request
Appendix E – OIG’s Initial Response to Senator Grassley’s Request—Dated
             October 15, 2003
Appendix F – Scope, Sampling Methodology and Results
   Table F-1:    Summary of Sample Results—Dollars
   Table F-2:    Summary of Sample Results—Number of Months
   Table F-3:    Overpaid Cases Identified Due to OIG’s Review (Not SSA’s Normal Processes)
   Table F-4:    Percent of Disabled Beneficiaries in Sample with Payments Stopped to Ineligible
                 Beneficiaries, Overpayments, or Both
   Table F-5:    Sample Results by Program
   Table F-6:    Audit Population as a Percent of Total Disability Population
   Table F-7:    Estimated Overpayments Based on Events in October 2003 or Earlier
   Table F-8:    Estimated Overpayments Based on Events in October 2003 or Earlier – With Outlier
   Table F-9:    Estimated Overpayments Based on Events in October 2003 or Earlier – Excluding
                 Outlier
   Table F-10:   Estimated Beneficiaries with Overpayments Due to OIG’s Review
   Table F-11:   Estimated Beneficiaries with Overpayments Detected by SSA’s Normal Processes
   Table F-12:   Estimated Overpayments SSA Assessed after FY 2004 for the Period October 2003
                 through September 2004
   Table F-13:   Estimated Payments Stopped to Ineligible Beneficiaries for 12-Months Based on Last
                 Monthly Payment Issued
   Table F-14:   Estimated Ineligible Beneficiaries Whose Payments Should Be Stopped
   Table F-15:   Estimated Payments Stopped to Ineligible Beneficiaries for 12-Months Based on Last
                 Monthly Payment if Benefit Payments Resumed in April 2006 for Beneficiaries Placed
                 in Suspense Based on OIG’s Review
   Table F-16:   Summary of Estimated Overpayments and Payments Stopped to Ineligible
                 Beneficiaries
   Table F-17:   Analysis of Four Diagnosis Groups Based on Cases in Which OIG Developed
                 Information SSA Did Not Already Have
   Table F-18:   Overpayment Rate Based on Sample Cases with Overpayments and Payments Not
                 Issued to Ineligible Beneficiaries
   Table F-19:   Estimated Overpayment Rate Based on Overpayments and Payments to Ineligible
                 Beneficiaries in FY 2004
   Table F-20:   Estimated Overpayment Rate Based on Overpayments and Annual Payments to
                 Ineligible Beneficiaries

Appendix G – Reasons Why Sampled Beneficiaries Were Overpaid or Became
             Ineligible for Payments



Overpayments in SSA’s Disability Programs (A-01-04-24065)
                                                                     Appendix A

Acronyms
CDI                         Cooperative Disability Investigations
CDR                         Continuing Disability Review
C.F.R.                      Code of Federal Regulations
DDS                         Disability Determination Services
DI                          Disability Insurance
EDR                         Electronic Death Registration
EVS                         Enumeration Verification System
GAO                         Government Accountability Office
FY                          Fiscal Year
LDO                         Legally Defined Overpayment
MIRS                        Medical Improvement Review Standard
OASI                        Old-Age and Survivors Insurance
OASDI                       Old-Age, Survivors and Disability Insurance
OIG                         Office of the Inspector General
OMB                         Office of Management and Budget
POMS                        Program Operations Manual System
Pub. L. No.                 Public Law Number
SGA                         Substantial Gainful Activity
SSA                         Social Security Administration
SSI                         Supplemental Security Income
SSN                         Social Security Number
U.S.C.                      United States Code
VA                          Department of Veterans Affairs




Overpayments in SSA’s Disability Programs (A-01-04-24065)
                                                                                Appendix B

Background
In recent years, the President and Congress have expressed interest in measuring the
universe of erroneous payments within the Government. In August 2001, the Office of
Management and Budget (OMB) published The President’s Management Agenda,
Fiscal Year (FY) 2002, which includes a Governmentwide initiative for improving
financial performance. Under this initiative, the Administration establishes a baseline of
the extent of erroneous payments and requires agencies to include in their annual
budget submissions information on erroneous payment rates. Using this information,
OMB works with agencies to establish goals to reduce erroneous payments for each
program. 1

In October 2001, the Government Accountability Office (GAO) issued an executive
guide on Strategies to Manage Improper Payments. 2 This guide defined overpayments
as payments that should not have been made or that were made for incorrect amounts.
Examples of overpayments include inadvertent errors, payments for unsupported or
inadequately supported claims, payments for services not rendered, payments to
ineligible beneficiaries, and payments resulting from fraud and abuse by program
participants and/or Federal employees. GAO further stated that overpayments occur for
many reasons, including insufficient oversight or monitoring, inadequate eligibility
controls and automated system deficiencies. The risk of overpayments increases in
programs with: (1) a significant volume of transactions, (2) complex criteria for
computing payments, and/or (3) an emphasis on expediting payments.

In November 2002, Congress enacted The Improper Payments Information Act
of 2002. 3 The Act instructs the head of each agency to: (1) annually review all
programs and activities susceptible to significant overpayments, (2) estimate and report
the annual amount of overpayments in those programs, and (3) report on actions being
taken to reduce overpayments. OMB issued guidance on implementing the Act in
May 2003. 4




1
    OMB, The President’s Management Agenda for Fiscal Year 2002, p. 20, August 2001.
2
 GAO, Strategies To Manage Improper Payments, Learning From Public and Private Sector
Organizations (GAO-02-69G), October 2001.
3
    Pub. L. No. 107-300, 31 U.S.C. § 3321.
4
  OMB, Memorandum for Heads of Executive Departments and Agencies: Implementation Guidance for
the Improper Payments Information Act of 2002, Pub. L. No. 107-300, p. 1, May 2003.



Overpayments in SSA’s Disability Programs (A-01-04-24065)                                   B-1
DETECTING AND PREVENTING OVERPAYMENTS
The Social Security Administration (SSA) is responsible for issuing benefit payments
under the Old-Age, Survivors and Disability Insurance (OASDI) and Supplemental
Security Income (SSI) programs. In FY 2004, SSA issued almost $531 billion in benefit
payments to about 53 million beneficiaries. 5 Considering the volume and amount of
payments SSA makes each month, the complexity of computing eligibility and amount
of payments, and SSA’s emphasis on getting beneficiaries into pay status timely, the
Agency is at risk of issuing significant overpayments. SSA has implemented controls to
reduce overpayments. However, with the size of the OASDI and SSI programs, even
the slightest error in the overall process can result in millions of dollars in overpayments.

The table below shows that SSA identified and assessed over $2 billion in new debt
(i.e., overpayments) for each of the last 5 years for its Disability Insurance (DI) and SSI
programs.

                                                                                             Percentage
               New Debt Detected by SSA    6
                                                    Total Benefits Paid for DI and SSI   7     of New
Fiscal               (in millions)                             (in millions)                     Debt
 Year                                                                                        (in relation
                                                                                             to benefits
                DI          SSI        Total          DI             SSI        Total           paid)
2001           $859      $1,951       $2,810      $59,207      $27,733       $86,940             3.2%
2002           $887      $2,050       $2,937      $66,964      $30,239       $97,203             3.0%
2003           $990      $1,936       $2,926      $69,800      $33,217      $103,017             2.8%
2004           $927      $1,979       $2,906      $75,169      $35,216      $110,385             2.6%
2005         $1,352      $2,050       $3,402      $89,731      $36,224      $125,955             2.7%

SSA has performance indicators to measure payment accuracy for the OASDI and SSI
programs. For FY 2005, SSA estimated that 93.6 percent of SSI payments and
99.8 percent of OASDI payments were free of preventable overpayments. 8 However,
these estimates do not count unavoidable errors that result from limitations in the
Agency’s computer systems and/or limitations placed on SSA by law. In addition, the
reviews do not include errors based on medical factors of eligibility. 9

SSA has undertaken many projects to identify and improve areas where the Agency
could do more to reduce overpayments. Specifically, SSA has been working to improve

5
    SSA, FY 2005 Performance and Accountability Report, p. 8 and p. 193, November 2005.
6
    SSA, Report on Receivables Due From the Public, FY 2001 – FY 2005.
7
    SSA, Performance and Accountability Report, FY 2001 – FY 2005.
8
    SSA, FY 2005 Performance and Accountability Report, p. 63, November 2005.
9
    SSA, Performance Plan for FY 2006, pp. 25-27, February 2005.



Overpayments in SSA’s Disability Programs (A-01-04-24065)                                           B-2
its ability to prevent overpayments by obtaining beneficiary information from
independent sources sooner and/or by using technology more effectively. In this
regard, SSA has initiated new computer matching agreements and obtained on-line
access to wage and income data.

SSA reports that several initiatives have helped to increase the detection and
prevention of overpayments. For example, the June 2002 SSI Corrective Action Plan
stated, “...SSI overpayment collections are 33 percent higher since FY 1998, and
detections are 32 percent higher.” 10 Additionally, SSA is focusing on initiatives that
have proven potential in preventing overpayments, rather than merely detecting
additional overpayments. For example, the Agency reported that in FY 2001, matching
wage data from the Office of Child Support Enforcement prevented an estimated
$183 million in overpayments; and matching prisoner data resulted in an estimated
$424 million in payments to ineligible beneficiaries. Further, SSA reported that it
increased the number of SSI redeterminations beginning in 2002 to ensure that
approximately one of every three SSI recipients has his/her eligibility reviewed each
year.

RECOVERY OF OVERPAYMENTS
SSA has made significant efforts over the past several years to recover OASDI and SSI
overpayments. The Agency has a number of tools in place—and others being reviewed
for possible implementation—for overpayment recovery, including:
     • Tax refund offset of Federal tax refunds;
     • Administrative offset from other non-tax Federal payments;
     • Referral of overpayments to credit bureaus;
     • Recovery from representative payees;
     • Cross program recovery between OASDI and SSI payments;
     • Recovery by compromise settlements with beneficiaries;
     • Administrative wage garnishment;
     • Federal salary offset;
     • Private collection agencies; and
     • Charging interest.

In recent audits, we reported that—at the end of FY 2002—SSA had recovered
57 percent of OASDI overpayments and 39 percent of SSI overpayments subject to
recovery between FYs 1996 and 2002. 11
10
  In 1997, GAO designated the SSI program as “high risk” since it lacked an effective plan to address the
level of debt that results from overpayments. As a result, SSA developed a corrective action plan, which
was updated in June 2002. The SSI program was removed from the “high risk” list in 2005.
11
  SSA OIG, Supplemental Security Income Overpayments (A-01-04-24022), April 2004, and
Overpayments in the Old-Age, Survivors and Disability Insurance Program (A-01-04-24023),
August 2004.



Overpayments in SSA’s Disability Programs (A-01-04-24065)                                            B-3
DISABILITY PROGRAMS DESIGNATED AS HIGH RISK
GAO designates programs as high risk due to their vulnerabilities to fraud, waste, abuse
and mismanagement and due to areas where agencies need to focus on major
economy, efficiency, or effectiveness challenges. In January 2003, modernizing
Federal disability programs was placed on the high risk list. 12 Although overpayments
in SSA’s disability programs were not the main focus of GAO’s review, the designation
draws attention to the size, impact and need for accuracy and quality in these programs.
Specifically, GAO found that:

          Disability programs have been growing and are poised to grow even more rapidly
          as more baby boomers reach their disability prone years. This growth is taking
          place despite greater opportunities for people with disabilities to work. Moreover,
          this growth is occurring at the same time that agencies such as the Social
          Security Administration (SSA) and the Department of Veterans Affairs (VA) are
          struggling to provide timely and consistent disability decisions. While the
          agencies are taking some actions to address these problems in the short term,
          longer-term solutions are likely to require fundamental changes including
          legislative action.

          GAO believes that SSA and VA should take the lead in examining the
          fundamental causes of program problems such as outmoded disability criteria
          and seek both management and legislative solutions as appropriate to bring their
          programs in line with the current state of science, medicine, technology and labor
          market conditions. At the same time, these agencies should continue to develop
          and implement strategies for improving the accuracy, timeliness, and consistency
          of disability decision-making. Further, both agencies should pursue more
          effective quality assurance systems.




12
     GAO, High-Risk Series: An Update (GAO-03-119), January 2003.


Overpayments in SSA’s Disability Programs (A-01-04-24065)                                       B-4
                                                                                      Appendix C

The Continuing Disability Review Process
The Social Security Act requires the Agency to periodically conduct continuing disability
reviews (CDR) for all beneficiaries receiving disability benefits. 1 The purpose of the
review is to determine if a person's impairment has improved since the most recent
favorable determination and to determine if the person can perform substantial gainful
activity (SGA). 2

In Fiscal Year (FY) 2004, the Social Security Administration (SSA) processed
approximately 1.6 million periodic CDRs—614,838 of which were full medical reviews
which resulted in the cessation of benefits for 96,934 beneficiaries (i.e., a 16 percent
cessation rate). SSA reported that it achieved about $10.2 in program savings for every
$1 in administrative costs invested in conducting CDRs for the 8 FYs 1996-2003. 3

SSA processes CDRs through either a mailer process or a full medical review of the
beneficiary’s impairment(s). The mailer is a questionnaire through which a beneficiary
provides information about his or her health, medical care, work history, and training. If,
in response to the mailer, the beneficiary indicates that his or her health is better, SSA
will generally conduct a full medical review. Otherwise, the CDR is generally deferred to
a later date or is referred for additional non-medical development by SSA staff.

In those cases where a full medical review is scheduled—either by CDR profiling
criteria 4 or referral from the mailer process, the individual is notified, offered the
opportunity to submit medical or other evidence, and informed that the review could
result in the termination of benefits. If an individual is found not to meet the disability
criteria of the law, SSA must suspend or terminate benefit payments, and the individual
is notified of the decision in writing and given an opportunity to appeal. These
procedures apply to both SSA’s disabled Title II beneficiaries and Title XVI recipients.


1
    Social Security Act § 221(i)(1), as amended, 42 U.S.C. § 421(i)(1), as amended.
2
  SSA, POMS, DI 10501.001: SGA means the performance of significant physical and/or mental activities
in work for pay or profit, or in work of a type generally performed for pay or profit. As of 2005, "Countable
earnings" of employees indicate SGA and "countable income" of the self-employed is "substantial" if the
amount averages more than $830 per month for non-blind individuals or $1,380 for blind individuals.
3
  SSA, Annual Report to Congress on Continuing Disability Reviews, Fiscal Year 2004, p. 3, 4 and 6,
October 2005. The 96,934 cessations resulted from the initial level of review—prior to appeals. SSA’s
Office of the Chief Actuary estimates that, after all appeals, approximately 63,800 reviews (10 percent of
the 614,838 full medical reviews) will result in termination of benefits.
4
  One of the many factors SSA considers in its CDR selection process to predict the probability of medical
improvement is the medical review diary date the Agency established when the case was last reviewed
(indicating when medical improvement may be expected). SSA, POMS, DI 28001.015.



Overpayments in SSA’s Disability Programs (A-01-04-24065)                                                 C-1
In 1984, Amendments to the Social Security Act 5 provided the medical improvement
review standard. Under this review standard, a recipient of disability benefits will be
found no longer disabled only if the evidence clearly shows both: (1) medical
improvement related to the ability to work and (2) ability to engage in SGA. 6

In addition to reviews which are scheduled periodically based on the category of
medical improvement, CDRs can be initiated by other events, such as: a report of work
activity; income in excess of a specified amount posted after disability has been
established; or a report from someone in a position to know of the individual's physical
or mental condition indicating that the person is not disabled, is not following required
treatment, or has returned to work, and it appears the report could be substantially
correct.

Eligibility for disability benefits ends when at least one of the following events occurs:

    •   There has been medical improvement (as related to the ability to work) in the
        individual's impairment or one of certain exceptions to medical improvement
        applies and the impairment considered together with the individual's age,
        education, and work experience, where appropriate, does not prevent the
        individual from engaging in SGA.
    •   Subject to the trial work period provisions, the individual demonstrates, by
        working, the ability to engage in SGA.
    •   The individual does not cooperate with SSA.
    •   SSA cannot find the individual.
    •   The individual fails to follow the prescribed treatment, which would be expected
        to restore his or her ability to engage in SGA.




5
  The Social Security Disability Benefits Reform Act of 1984, Pub. L. No. 98-460, 42 U.S.C. § 405. Prior
to 1984, disability adjudicators considered only the beneficiary's current ability to engage in SGA.
6
 There are some cases where the medical improvement review standard does not apply: lost folder
cases; cases in which a permanent, severe impairment is present and medical improvement is not
expected to occur; cases involving work incentive provisions; etc.



Overpayments in SSA’s Disability Programs (A-01-04-24065)                                             C-2
                                                            Appendix D

Senator Grassley’s September 2003 Request




Overpayments in SSA’s Disability Programs (A-01-04-24065)
Overpayments in SSA’s Disability Programs (A-01-04-24065)   D-1
Overpayments in SSA’s Disability Programs (A-01-04-24065)   D-2
                                                            Appendix E

OIG’s Initial Response to Senator Grassley’s
Request—Dated October 15, 2003




Overpayments in SSA’s Disability Programs (A-01-04-24065)
                                SOCIAL SECURITY


                                     October 15, 2003

The Honorable Charles E. Grassley
Chairman, Senate Finance Committee
United States Senate
Washington, D.C. 20510

Dear Chairman Grassley:

I am pleased to provide you the information requested in your September 4, 2003 letter
regarding the Social Security Administration’s disability programs.

The enclosed report provides information regarding the following:
           a proposed audit to calculate overpayment rates for the Social Security
            Administration’s disability programs,
           a status report on the Cooperative Disability Investigations units, and
           a proposed audit on the prevalence of improper payments in four specific
            diagnosis groups.

If you have any questions or would like to be briefed on these issues further, please call
me or have your staff contact Douglas Cunning ham, Executive Assistant, at
(202) 358-6319.

                                                  Sincerely,

                                                  /s/


                                                  James G. Huse, Jr.

Enclosure

cc:
Jo Anne B. Barnhart, Commissioner




Overpayments in SSA’s Disability Programs (A-01-04-24065)                              E-1
    Request for an Audit to Produce a Statistically Valid Overpayment
                  Rate for Each SSA Disability Program
We will initiate a audit in Fiscal Year 2004 to calculate a statistically valid overpayment
rate for the Social Security Administration’s (SSA) Disability Insurance (DI) and
Supplemental Security Income (SSI) programs. The overpayment rates we calculate for
this audit will include all known overpayments—avoidable and unavoidable—identified
by SSA. This rate will include legally defined overpayments as well as non-legally
defined overpayments. 1

Since the Improper Payments Information Act of 2002 was enacted and the Office of
Management and Budget (OMB) issued its May 2003 guidance on implementing this
law, we have had ongoing discussions with SSA to determine whether certain
circumstances, unique to the Agency, should be included in SSA’s payment accuracy
rates. In August 2003, OMB decided that SSA should only include avoidable
overpayments in its improper payment estimate because these payments could be
reduced through changes in administrative actions. Unavoidable overpayments that
result from legal or program requirements are not to be included in SSA’s improper
payment estimate. (Please see OMB’s August 2003 guidance on pages 2 and 3.)

SSA will continue to calculate its improper payment rates in accordance with OMB’s
August 2003 guidance. However, our audit will calculate an overpayment rate that does
not exclude the overpayments specified by OMB.

We have started to develop a methodology to produce statistically valid overpayment
rates for SSA’s disability programs, including all overpayments. One option we are still
researching is to obtain SSA data of all overpayments identified for a given year (such
as 1999). This would include all overpayments detected in 1999 and in subsequent
years. By selecting 1999 as the year of analysis, sufficient time should have elapsed for
SSA to identify and assess the overpayments. From this data, we may be able to total
the amount of overpayments identified for the DI and SSI programs.

By comparing the total amount of identified DI and SSI overpayments in 1999 to the
total amount of disability benefit payments issued in 1999 for these two programs, we
will be able to calculate an overpayment rate.

We are still exploring the feasibility of obtaining all overpayment data from SSA’s
systems and the time frames that would be involved in not only obtaining this data, but
testing its accuracy and reliability. However, another option for calculating an

1
  A legally defined overpayment (LDO) means that a determination has been made that a beneficiary has
been paid more than he/she is actually due for a specified period of time. Due process is required for
each and every LDO. SSA must give advance written notice explaining the amount of the overpayment,
how the overpayment occurred, how SSA plans to recover the overpayment, and all appeal rights
associated with the planned action BEFORE the Agency withholds any money to recover the LDO. Due
process also requires that sufficient time is allowed for the overpaid person to exercise his/her appeal
rights before action is taken.


Overpayments in SSA’s Disability Programs (A-01-04-24065)                                            E-2
overpayment rate would be to quantify the overpayments and actual payment due for a
statistically valid sample of beneficiaries from the DI and SSI rolls. This option may be
needed if total overpayment amounts for each DI and SSI beneficiary for a specific year
cannot be easily extracted from SSA’s systems. Also, sampling may be a more efficient
and timely method for calculating an overpayment rate. A sample of approximately
300 cases from each of the two programs would result in an overpayment estimate at
the 90 percent confident level (plus or minus 3 percent).




Overpayments in SSA’s Disability Programs (A-01-04-24065)                             E-3
                                   OMB Guidance on Defining Erroneous Payments (issued August 2003)

The following table identifies the types of SSA payments, programs affected, current reporting status, reasons for the payments,
and their classification. There are two classifications:

   •   Unavoidable - Payments resulting from legal or policy requirements. These payments are not considered erroneous.
   •   Avoidable - Payments that should be reflected in the erroneous payment estimate because they could be reduced through
       changes in administrative actions.

           Types of Payments             Program     Current Status                Reason for Overpayment/Underpayment                             OMB
                                                                                                                                               Classification
    Payments following a cessation of   DI and SSI   Not currently     When SSA is required by law to make payments during the                 Unavoidable
    eligibility due to a continuing                  reflected as an   appeals process, these payments are not erroneous.
    disability review (CDR)                          error
    Payments made under the             SSI          Reported as       When due process requires SSI payments to continue, although            Unavoidable
    Goldberg-Kelly due-process                       unavoidable       the agency has determined that a payment reduction or
    Supreme Court decision.                          erroneous         termination is in order, such payments are not erroneous.
                                                     payment in
                                                     APP.
    Payments made incorrectly due to    SSI          Reported as       The law requires SSI payments to be made on the first of the            Unavoidable
    program design                                   unavoidable       month based on projected income for that particular month.
                                                     erroneous         Changes in the recipient’s status can occur during the month,
                                                     payment in        which causes the recipient’s eligibility to change. Because SSA
                                                     APP.              cannot prevent the overpayment from being made, this situation
                                                                       should not be reflected in the agency’s erroneous payment rate.
    Payments issued after Death         Old-Age      Not currently     Dollars released after death (either electronically or in the form of   Unavoidable
                                        and          reflected as an   a paper check), which are reclaimed by Treasury or returned             except for fraud
                                        Survivors    error             unendorsed, should not be reflected in the Agency's erroneous           or misuse
                                        Insurance                      payment rate. Conversely, payments made after death which are
                                        (OASI), DI                     improperly cashed or withdrawn, and are subject to overpayment
                                        and SSI                        recovery, should be reported.
    Non-Receipt of Payment              OASI, DI     Not currently     Duplicate payments issued in accordance with the Robinson-Reif          Unavoidable
                                        and SSI      reflected as an   Court decision are unavoidable and should not be reflected in the       except for fraud
                                                     error             Agency's reports on erroneous payments. The only exception is           or misuse
                                                                       duplicates incorrectly sent to abusers.




        Overpayments in SSA’s Disability Programs (A-01-04-24065)                                                                                     E-4
       Types of Payments            Program     Current Status               Reason for Overpayment/Underpayment                           OMB
                                                                                                                                      Classification
Payments based on medical          DI and SSI   Not currently     Payments are not erroneous if they are the result of a medical     Should not be
eligibility                                     reflected as an   improvement review standard or a situation where the beneficiary   included in the
                                                error             would have been ineligible had the law permitted retroactive       erroneous
                                                                  ineligibility.                                                     payment
                                                                                                                                     estimate
Payments made for title II         DI and       Not currently     When program design requires that the agency make payments         Unavoidable
beneficiaries based on earnings    OASI         reflected as an   based on estimated earnings, these payments should not be
estimates                                       error             considered erroneous.
Undetected Error                   OASI, DI     Not currently     The agency should not reflect undetected error in its erroneous    Should not be
                                   and SSI      reported as an    payment rate unless it has evidence that a specific type of        included in the
                                                error             erroneous payment was made.                                        erroneous
                                                                                                                                     payment
                                                                                                                                     estimate
Duplicate payments to attorneys,   Admin.       Not currently     Systems do not capture when the overpayment occurs; however,       Avoidable
vendors and employees              Expense      reported as an    this type of error does not meet the reporting threshold.
                                                error




    Overpayments in SSA’s Disability Programs (A-01-04-24065)                                                                               E-5
  Report on the OIG’s Cooperative Disability Investigations Program—
             Including its Scope, Cost, and Total Recovery
In 1998, the Cooperative Disability Investigations (CDI) program began as a joint effort
among Federal and State agencies to effectively pool resources for the purpose of
preventing or terminating improper payments in SSA’s Title II and Title XVI disability
programs, and related Federal and State programs. This major special investigative
project supports the Agency's strategic goal of establishing zero tolerance for fraud, thus
ensuring public confidence in the integrity of SSA's programs and operations.

Purpose – Provide greater investigative support in proximity to the disability decision
making process to facilitate correct and timely decisions. Disability Determination Services
(DDS) adjudicators refer suspicious claims for investigation using guidance found in SSA’s
Program Operations Manual System. Disability fraud allegations received by the SSA
Fraud Hotline and the field offices likewise may be referred to the appropriate CDI unit.
This enhances the ability to identify fraud at the onset to prevent payment on fraudulent
initial applications, and ensures timely investigation and termination when fraud is detected
during continuing disability reviews (CDR) or as a result of investigations of SSA Fraud
Hotline or Field Office referrals.

Mission – At present, the program consists of 17 CDI units nationwide, whose mission is
to obtain evidence of material fact sufficient to resolve questions of fraud in SSA’s disability
programs for purposes of criminal and/or civil prosecution. Within that context, the CDI
Unit will provide the State DDS with credible and independent evidence for its use in
making timely disability eligibility determinations. This supports the Agency’s strategic goal
of ensuring the integrity of Social Security programs, with zero tolerance for fraud and
abuse.

Composition – CDI units are typically comprised of Special Agents from SSA’s OIG, State
or local law enforcement agency investigators, DDS examiners, and SSA Management
Support Specialists (or other similar non-bargaining unit employees). The DDS or law
enforcement agency may provide investigative assistants to the CDI units if needed and
supported by current resources. Every effort is made to ensure a high level of
communication and cooperation among the more than two dozen participating SSA, DDS,
OIG, Office of Hearings and Appeals, and law enforcement components. Together, these
agencies have dedicated almost 100 full-time staff to the initiative.

Evolution – In FY 1998, five units were formed in New York City, Chicago, Oakland,
Atlanta, and Baton Rouge. The success of these units led to additional units being added
each year to the current 17 operational units. (See map on page 7 for CDI unit locations.)

Accomplishments – Since inception through August 2003, the CDI units have received
over 10,400 allegations of fraud, opened over 6,000 cases with over 4,500 confirmed
cases of fraud or similar fault. The projected savings of CDI efforts were over $268 million
to SSA programs and over $146 million to related State programs.




Overpayments in SSA’s Disability Programs (A-01-04-24065)                                   E-6
Estimated Cost – For FYs 2002 and 2003, the estimated costs were $6 million and
$5.9 million, respectively. These are total spending dollars for the CDI units—including
salary, benefit, and overtime costs for DDS staff and investigators, but not considering
salary and benefit costs for SSA and OIG staff.




Overpayments in SSA’s Disability Programs (A-01-04-24065)                                  E-7
                                                      FY 2003 CDI Units

          Seattle



      Salem
                                                                                                                  Boston

                                                                                                             New York
                                                                              Chicago      Cleveland         Iselin

                                                                                                       Richmond
   Oakland
                                                                       St. Louis

                                                                                   Nashville


                         Phoenix                                                           Atlanta

                                                              Dallas

                                                                          Baton Rouge
                                                              Houston
                                                                                                     Tampa




Overpayments in SSA’s Disability Programs (A-01-04-24065)                                                          E-8
    Request for Further Analysis of the Improper Payment Prevalence in
           the Diagnosis Groups Susceptible to Overpayments
We plan to start a comprehensive statistical analysis to quantify the amount of
undetected improper payments in SSA’s disability programs—with an emphasis on the
four diagnosis groups we believe are more susceptible to fraud and overpayments
based on our prior audit and investigative work.

Our plan is to review a statistically valid sample of 1,532 Title II and Title XVI disability
cases. This sample would be stratified into 2 groups:
        approximately 919 beneficiaries (60 percent) whose disabilities fall into one of the
         four diagnosis groups21 we believe are most susceptible to fraud, and
        613 beneficiaries (40 percent) whose disabilities fall into one of the remaining
         13 diagnosis groups.

A sample of 1,532 cases would allow us to estimate the amount of improper payments
at a 95 percent confidence level (plus or minus 1.5 percent).

The OIG would review each sample case and conduct an investigation to determine
whether the beneficiary is really disabled and eligible for benefits. We will also need
SSA to conduct CDRs on these cases to evaluate the beneficiaries’ medical conditions.3
Based on the detailed analysis of the 1,532 cases, we will be able to
        estimate the amount of undetected improper payments in SSA’s disability
         programs in each of our two groups—those with diagnoses more susceptible to
         fraud and those with other diagnoses.
        develop recommendations to improve SSA’s efforts to identify and prevent
         improper payments in SSA’s disability programs.

We expect this audit to take approximately 12 months to complete, as follows:
        4 months for OIG to conduct the initial planning for the audit; develop, obtain and
         test computer data; review sample cases to determine whether a CDR is needed
         and/or conduct an investigation to determine whether the beneficiary is really
         disabled.




2
 These 4 diagnosis groups are: (1) endocrine, nutritional, and metabolic diseases; (2) mental disorders
(other than mental retardation); (3) diseases of musculoskeletal system; and (4) injuries.
3
 We will only ask SSA to conduct CDRs on sample cases that have not had a CDR in the last 12 months.
We will rely on the most recent CDR information for those sample cases that had a CDR within the last
year. Further, we will not ask SSA to conduct CDRs for beneficiaries using tickets under the Ticket to
Work and Work Incentive Improvement Act of 1999 (Public Law 106-170)—since a CDR is precluded for
beneficiaries utilizing this program.

Overpayments in SSA’s Disability Programs (A-01-04-24065)                                             E-9
      6 months for SSA to conduct CDRs.
      2 months for OIG to analyze and summarize the sample results, develop
       recommendations to improve the identification and prevention of improper
       payments, and provide feedback to SSA.




Overpayments in SSA’s Disability Programs (A-01-04-24065)                         E-10
                                                                                   Appendix F

Scope, Sampling Methodology and Results
To accomplish our objective, we:
•   Reviewed applicable sections of the Social Security Act, Code of Federal
    Regulations, Social Security Administration’s (SSA) Program Operations Manual
    System, Office of Management and Budget (OMB) guidance, and Government
    Accountability Office reports.

•   Obtained a file of 11,111,388 disabled individuals 1 who were in current payment
    status on SSA’s records in October 2003. We tested the beneficiary and recipient
    data obtained for our audit for accuracy and completeness and determined it to be
    sufficiently reliable to meet our audit objectives.

    From the file of 11.1 million individuals, we excluded:
         > 342,969 beneficiaries with blank diagnosis codes because we were
           stratifying the sample by diagnosis code. 2
         > 103,591 beneficiaries receiving more than one benefit and where the
           records had different diagnosis codes that would cause the case to fall into
           both strata.
         > 1,768,331 beneficiaries age 62 and above because some individuals in the
           population were coded as receiving disability benefits but were actually
           receiving—or would have been entitled to—benefits based on age without
           considering disability.

•   Stratified the remaining population of 8,896,497 beneficiaries—about 80 percent of
    all 11.1 million disabled beneficiaries—into two groups:
         > Stratum A was 4,830,214 beneficiaries (54 percent) whose diagnosis codes
           fell into one of the four diagnosis groups mentioned in Senator Grassley’s
           September 4, 2003 letter to the Inspector General: (1) mental disorders
           other than mental retardation; (2) diseases of musculoskeletal system;
           (3) endocrine, nutritional, and metabolic diseases; and (4) injuries.




1
  The original data files contained 13.9 million payment records. However, if an individual appeared more
than once in the file because he/she was receiving both DI and SSI benefits, we combined the records.
Therefore, the 13.9 million payment records represented 11.1 million unique individuals.
2
 The OIG issued a report in March 2000 on the Reliability of Diagnosis Codes Contained in the Social
Security Administration's Data Bases (A-01-99-61001).



Overpayments in SSA’s Disability Programs (A-01-04-24065)                                              F-1
         > Stratum B was 4,066,283 beneficiaries (46 percent) whose diagnosis codes
           did not fall into one of these four diagnosis groups. 3

    From the population, we selected
    1,532 individuals using proportional              60%
    allocation methodology—Stratum A                  50%
    included 832 individuals (54 percent)             40%
    and Stratum B included
                                                      30%
    700 individuals (46 percent).
                                                      20%

    The sample size was established to                10%
    ensure projections were made at a                  0%
    95 percent confidence level with a                        Population          Sample

    precision of +/- 1.5 percent and an                          Four Diagnosis Groups
    expected error rate of 10 percent or                         Other Diagnosis Groups
    less.

    We tested the sample and concluded that it was representative of the population.
    Specifically, we found that the average Disability Insurance (DI) and Supplemental
    Security Income (SSI) payments in the sample—$784 and $442 respectively—were
    reasonably similar to the average amounts SSA reported for all DI and SSI
    payments—$841 and $433 respectively. Additionally, we found that the number of
    DI, SSI and concurrent beneficiaries in the sample was reasonably similar to the
    population—as shown in the table below.

                   SSA Program                            Sample              Population
       Individuals Receiving DI                          785 (51%)         4.6 million (51%)
       Individuals Receiving SSI                         547 (36%)         3.4 million (39%)
       Individuals Receiving both DI and SSI             200 (13%)         0.9 million (10%)
       (i.e., concurrent beneficiaries)

•   Obtained and analyzed the Master Beneficiary Record, the Supplemental Security
    Income Record, the Numident Record, disability data, and earnings records for each
    of the sample cases.
•   Gathered information on the sample cases—with the assistance of the Office of
    Investigations—through a wide range of techniques, including direct and third party
    interviews, public and private source data queries, surveillances, and investigations
    of work activities.


3
 The other diagnosis groups fall within the following body systems: Special Senses and Speech,
Respiratory System, Cardiovascular System, Genito-Urinary System, Hematological Disorders, Skin
Disorders, Multiple Body Systems, Neurological, Mental Retardation, Malignant Neoplastic Diseases,
Immune System, Growth Impairment, and Special/Other.




Overpayments in SSA’s Disability Programs (A-01-04-24065)                                            F-2
•   Quantified the amount of benefits paid for each sample beneficiary in October 2003,
    and then multiplied this amount by 12 to estimate amount of benefits paid for the
    Fiscal Year.
•   Referred selected cases to SSA—based on the information we gathered—to
    determine whether the individuals were still disabled and eligible for benefits. If SSA
    determined the individuals were no longer eligible for benefits or were overpaid as a
    result of our referral, we quantified:
         1. The amount of overpayments assessed by the Agency as a result of our
            review between October 2003 and November 2005—based on events that
            occurred in October 2003 or earlier.
                   Ö Overpayments tend to span varying time periods (from 1 month to
                     many years) and, although the overpayments were identified and
                     assessed during our audit period (October 2003 –
                     November 2005), the amounts may actually represent payments
                     made to the beneficiaries outside of this time period.
                   Ö We only included overpayments if the event (such as work activity)
                     that caused the overpayment occurred in October 2003 or earlier
                     because these events were known or should have been known to
                     SSA at the time we initiated our review.
         2. The amount of potential benefits SSA could have saved over a 12-month
            period—beginning with the first month of non-payment—where, as a result of
            our review, the Agency determined that the individual was no longer eligible
            for benefits and stopped payments between October 2003 and
            November 2005. The amount of payments to ineligible beneficiaries we
            reported was the amount of the last monthly payment issued multiplied by
            12 months. 4

•   Quantified for each sample case:
       1. The amount of overpayments identified and assessed by SSA’s normal
            processes between October 2003 and November 2005 for events that
            occurred in October 2003 or earlier.
         2. The amount of annual payments saved by SSA by stopping benefits to
            ineligible beneficiaries through its normal processes between October 2003
            and November 2005. The amount of annual payments stopped to ineligible
            beneficiaries was the last monthly payment issued multiplied by 12.




4
 SSA may eventually detect the payments to ineligible beneficiaries or overpayments through its normal
processes. However, at the time of our review, the Agency was not developing information on these
cases.



Overpayments in SSA’s Disability Programs (A-01-04-24065)                                           F-3
•   Based on the sample results, we estimated the amount of overpayments assessed,
    as well as the amount of potential funds SSA could save over a 12-month period. 5
    The estimate of potential payments to ineligible beneficiaries was based on the last
    monthly payment received by each beneficiary whose benefits were stopped during
    our review (and not the October 2003 payment amount when we obtained our data
    file). 6
•   Referred instances of suspected fraudulent activity to the appropriate offices to
    pursue remedies, such as criminal or civil prosecution, civil monetary penalties or
    administrative sanctions.
•   Obtained, from SSA, the amount of new debt assessed (i.e. overpayments) in each
    of the last 5 Fiscal Years (FY)—FY 2001 through FY 2005.
•   Obtained, from SSA’s Performance and Accountability Report, the amount of DI and
    SSI payments made in FY 2001 through FY 2005.
•   Calculated the percent of disability benefits that should not have been paid:
       o We totaled the amount of overpayments assessed for FY 2004 for our sample
         cases which were detected during our review period of October 2003 and
         November 2005 and the amount of payments not issued to ineligible
         beneficiaries in FY 2004 as a result of our review. This total was compared to
         the amount of benefits paid to our sampled beneficiaries in FY 2004.
       o We added the new debt assessed by SSA in FY 2004, the estimated
         overpayments for FY 2004 that were not detected by the Agency, and the
         estimated payments issued to ineligible beneficiaries in FY 2004 as a result of
         our review. This total was compared to the total DI and SSI payments made in
         FY 2004.
       o We added the new debt assessed by SSA in FY 2004, the estimated
         overpayments for FY 2004 that were not detected by the Agency, and the
         estimate of all benefits paid to potentially ineligible individuals. This total was
         compared to the total DI and SSI payments made in FY 2004.

We performed our audit between October 2003 and November 2005 in Boston,
Massachusetts and Office of Investigations field divisions throughout the United States.
The entities audited were the Office of Disability and Income Security Programs under
the Deputy Commissioner for Disability and Income Security Programs and the Office of

5
 Several beneficiaries had overpayments and/or payments to ineligible beneficiaries identified by SSA,
but they also had additional overpayments and/or payments to ineligible beneficiaries identified due to the
OIG’s review. To ensure beneficiaries were not double-counted, we considered these beneficiaries to
have been identified by SSA (and not the OIG). However, the dollar amounts in our sample and
estimates are separate and distinct—depending on whether SSA identified them through its normal
processes or if the amounts were identified due to the OIG’s review.
6
  We used the last payment amount because of the length of time it took to select sample cases, review
them, and refer them to SSA for appropriate action. In addition, it took the Agency 6 to 12 months to
complete its actions—such as reviews of beneficiaries’ medical condition or work activity.


Overpayments in SSA’s Disability Programs (A-01-04-24065)                                              F-4
Operations under the Deputy Commissioner for Operations. We conducted our audit in
accordance with generally accepted government auditing standards.

SAMPLE RESULTS AND PROJECTIONS 7

                   Table F-1: Summary of Sample Results—Dollars
                                                        Detected by OIG between
                                 Detected by SSA
                                                            October 2003 and
                               between October 2003
                                                             November 2005
                                and November 2005
                                                          (Undetected by SSA)
                           Overpayments in Sampled Cases
Total overpayments                       $333,187                   $586,786
Average amount overpaid                                $2,824                           $32,599
Range 8                                         $2 to $55,184                $4,355 to $133,316
Median overpayment                                       $775                           $24,481
    Overpayment Ranges            Number of Cases                Number of Cases
   Under $1,000                                   66                           0
   $1,000 - $4,999                                38                           0
   $5,000 - $9,999                                 6                           6
                     9
   $10,000 or more                                 7                          12
          Total Cases                            117                          18
              Payments Stopped to Ineligible Beneficiaries in Sampled Cases
Payments Stopped to
                                          $1,208,587                    $369,162
Ineligible Beneficiaries 10




7
    The amounts in the tables are rounded to the nearest whole dollar. Any differences are due to rounding.
8
  The $133,316 was the largest overpayment detected by the OIG. This amount is substantially more
than the next highest overpayment amount for this category, which was $89,891.
9
  One beneficiary had an overpayment detected by SSA of $1,126 and another overpayment due to the
OIG’s review of $38,668. We classified this case in the group of cases that were detected as a result of
the OIG’s review in the “$10,000 or more” category. We did not include it in the group of cases detected
by SSA in the “$1,000 to $4,999” category. Although we counted this case only once, the overpayment
dollars are reported in the appropriate category.
10
  While SSA reports savings for CDRs, the Agency does not report savings for all beneficiaries
suspended/terminated (such as for fugitives). Therefore, there is no number comparable to our savings
estimate. However, our cessation rate due to medical improvement for the period October 2003 through
November 2005 in our sample was 13 percent, which is lower than the 16 percent cessation rate SSA
had for a similar time period (October 2003 through May 2005).



Overpayments in SSA’s Disability Programs (A-01-04-24065)                                              F-5
                       Table F-2: Summary of Sample Results—Number of Months
                                                                        Detected by OIG between
                                     Detected by SSA between
                                                                            October 2003 and
                                         October 2003 and
                                                                             November 2005
                                          November 2005
                                                                          (Undetected by SSA)
Months Overpaid                         Number of Months                    Number of Months
      Average                                              13                                 43
      Range                                           1 to 60                           6 to 177
      Median                                               10                                 30
      Mode                                                  1                                 30
Length of Time to Discover
                                        Number of Months                    Number of Months
Overpayment
      Average                                              18                                 41
      Range                                           0 to 67                           5 to 108
                  11
      Median                                               15                                 34
             12
      Mode                                                  2                         29, 41, 82




 11
   The median is the value of the middle item when the items are arranged by size. Within our sample,
 the median is the middle item when the number of months were listed from low to high.
 12
   The mode is the value that occurs most frequently. Of the 18 overpayments detected by the OIG,
 29 months, 41 months, and 82 months each occurred twice; whereas the number of months for the
 remaining cases only occurred once.



 Overpayments in SSA’s Disability Programs (A-01-04-24065)                                          F-6
      Table F-3: Sample Results of Overpaid Cases Identified Due to OIG’s Review
                       (Not Through SSA’s Normal Processes)
     Overpaid From Overpaid To         Months       Amount      Reason
                                                                                              13
                                                                Income/Work Activity
1    January 1990    September 2004        177      $38,668     (identified by OIG and not on
                                                                            SSA’s records)
2    November 1997       August 2004                82        $47,578       Income/Work Activity
3    February 1998       October 2004               81       $133,316       Income/Work Activity
4    July 1998           November 2004              77        $89,891       Income/Work Activity
5    May 2000            March 2004                 47        $47,846       Income/Work Activity
6    June 2001           July 2004                  39        $28,390       Income/Work Activity
7    December 2001       May 2004                   30        $25,511       Income/Work Activity
8    January 2002        March 2004                 27        $33,170       Income/Work Activity
9    March 2002          August 2004                30        $23,051       Fugitive 14
10   March 2002          January 2005               35        $43,460       Income/Work Activity
                                                                            Income/Work Activity
11   December 2002       March 2005                 28         $17,763      (identified by OIG and not on
                                                                            SSA’s records)
12   March 2003          February 2005              16          $7,831      SSI Eligibility Not Met 15
                                                                            Income/Work Activity
13   March 2003          November 2005              32         $19,070      (identified by OIG and not on
                                                                            SSA’s records)
14   May 2003            April 2004            12              $7,904       Inability to Locate
15   June 2003           February 2004           9             $4,356       Fugitive/Prisoner
16   June 2003           February 2005         19              $9,418       Income/Work Activity
17   October 2003        March 2004              6             $4,704       Fugitive
18   January 2004        June 2005             18              $4,859       Not Cooperating 16
                           Total Overpayments 17             $586,786


13
  For the 12 cases with overpayments due to income/work activity, 9 had earnings recorded on SSA’s
Master Earnings File (above $6,000) and the Agency should have been aware of the potential for
overpayments or ineligibility. However, for 3 of the 12 cases with overpayments, SSA did not have
earnings information prior to our review. (The OIG also identified five beneficiaries who were not
overpaid but had benefits stopped because of the earnings. Four of the beneficiaries already had
earnings information recorded on SSA’s systems and one did not.)
14
 The prisoner/fugitive information was developed by the OIG and was not known to SSA prior to
October 2003.
15
  The recipient was overpaid because his step-father’s income exceeded the limits for SSI eligibility. The
Agency was not aware of the income because the recipient’s mother did not inform SSA of her marriage.
Therefore, the family’s total income was not linked together in the Agency’s records.
16
  SSA assessed an overpayment for this beneficiary based on our review for the period January 2004
through June 2005 due to failure to cooperate which involved the beneficiary not providing his tax returns
for prior years. These tax returns are likely to show that he had earnings above SSA’s substantial gainful
activity levels prior to October 2003.
17
  Of the $586,786 in overpayments detected by OIG in our sample, $142,754 was overpaid in FY 2004.
The remaining $440,032 was overpaid in other years.


Overpayments in SSA’s Disability Programs (A-01-04-24065)                                                   F-7
                  Table F-4: Percent of Disabled Beneficiaries in Sample
         with Payments Stopped to Ineligible Beneficiaries, Overpayments, or Both
Sample                                                                                1,532
Beneficiaries with payments stopped to ineligible beneficiaries, overpayments,
or both                                                                                 292
 Percent                                                                               19%

Beneficiaries that SSA identified with payments stopped to ineligible
beneficiaries, overpayments or both                                                     245
 Percent of Sample                                                                     16%

Beneficiaries that the OIG identified that resulted in SSA stopping payments to
ineligible beneficiaries, overpayments, or both                                             47
 Percent of Sample                                                                      3%



                           Table F-5: Sample Results by Program
                                             DI                 SSI                 Total
Payments stopped to ineligible
                                     $1,006,767           $570,982                 $1,577,749
beneficiaries
Overpayments                           $680,891           $239,082                   $919,973
 Total                               $1,687,658   68%     $810,064           32%   $2,497,722


            Table F-6: Audit Population as a Percent of Total Disability Population
Total disability population as of October 2003                                   11,111,388
Population for OIG’s review                                                       8,896,497
Percent of population for OIG’s review from total population                           80%




 Overpayments in SSA’s Disability Programs (A-01-04-24065)                                  F-8
                          Table F-7: Sample Results and Projections
            Estimated Overpayments Based on Events in October 2003 or Earlier 18
                                  Stratum A Four     Stratum B Other
                                                                              Total
                                Diagnosis Groups Diagnosis Groups
Population size                         4,830,214         4,066,283          8,896,497
Sample size                                   832               700              1,532
            Dollar Projections – Overpayments Based on SSA’s Normal Processes
Sample results 19                        $178,480          $154,707           $333,187
Point estimate                     $1,036,174,546      $898,686,418     $1,934,860,964
Projection lower limit                                                  $1,025,896,916
Projection upper limit                                                  $2,843,825,012
                 Dollar Projections – Overpayments Based on OIG’s Review 20
Sample results                           $195,632          $347,730           $543,362
Point estimate                     $1,135,749,350    $2,019,953,382     $3,155,702,732
Projection lower limit                                                  $1,252,447,922
Projection upper limit                                                  $5,058,957,543
                                 Total Estimated Overpayments
                                   $2,171,923,896    $2,918,639,800      $5,090,563,696
 Note: All projections were calculated at the 95-percent confidence level.




 18
    To be conservative in the development of our estimate, we did not include the entire amount of a very
 large overpayment for one beneficiary that was identified based on the OIG’s review. SSA assessed an
 overpayment of $133,316—substantially more than the next highest overpayment amount for this
 category. Therefore, in our estimates, we used $89,891—the amount of the next highest overpayment
 identified by the OIG’s review. See Table F-8 for the estimate with the full overpayment amount included
 for this case and Table F-9 for the estimate excluding the entire overpayment for this case.
 19
   Of the $333,187 in overpayments detected by SSA in our sample, $222,289 was overpaid in FY 2004.
 The remaining $110,898 was overpaid in other years.
 20
   The only number calculated by SSA that could be compared to our total overpayment estimate is the
 amount of new debt detections reported by SSA on its financial statements. SSA reported $6.3 billion in
 new debt for FYs 2004 and 2005 and this is similar to our reporting period of October 2003 through
 November 2005 where we estimated $5.1 billion in overpayments. (SSA’s $6.3 billion includes
 overpayments for non-disabled beneficiaries, i.e., individuals collecting Social Security or SSI benefits
 based on old-age. Therefore, it is reasonable that our estimate of $5.1 billion for DI and SSI disabled
 beneficiaries would be lower.)



 Overpayments in SSA’s Disability Programs (A-01-04-24065)                                              F-9
                           Table F-8: Sample Results and Projections
    Estimated Overpayments Based on Events in October 2003 or Earlier—With Outlier
                                  Stratum A Four     Stratum B Other
                                                                             Total
                                 Diagnosis Groups Diagnosis Groups
Population size                         4,830,214         4,066,283         8,896,497
Sample size                                   832               700             1,532
            Dollar Projections—Overpayments Based on SSA’s Normal Processes
Sample results                           $178,480          $154,707          $333,187
Point estimate                     $1,036,174,546      $898,686,418    $1,934,860,964
Projection lower limit                                                 $1,025,896,916
Projection upper limit                                                 $2,843,825,012
                   Dollar Projections—Overpayments Based on OIG’s Review
               21
Sample results                           $195,632          $391,154          $586,786
Point estimate                     $1,135,749,350    $2,272,206,991    $3,407,956,341
Projection lower limit                                                 $1,200,140,828
Projection upper limit                                                 $5,615,771,854
                                 Total Estimated Overpayments
                                   $2,171,923,896    $3,170,893,409     $5,342,817,305
 Note: All projections were calculated at the 95-percent confidence level.


                           Table F-9: Sample Results and Projections
 Estimated Overpayments Based on Events in October 2003 or Earlier—Excluding Outlier
                                  Stratum A Four     Stratum B Other
                                                                             Total
                                 Diagnosis Groups Diagnosis Groups
Population size                         4,830,214         4,066,283         8,896,497
Sample size                                   832               700             1,532
            Dollar Projections—Overpayments Based on SSA’s Normal Processes
Sample results                           $178,480          $154,707          $333,187
Point estimate                     $1,036,174,546      $898,686,418    $1,934,860,964
Projection lower limit                                                 $1,025,896,916
Projection upper limit                                                 $2,843,825,012
                   Dollar Projections—Overpayments Based on OIG’s Review
Sample results                           $195,632          $257,838          $453,470
Point estimate                     $1,135,749,350    $1,497,777,585    $2,633,526,935
Projection lower limit                                                 $1,026,133,759
Projection upper limit                                                 $4,240,920,110
                                 Total Estimated Overpayments
                                   $2,122,592,549    $2,377,411,956     $4,500,004,505
 Note: All projections were calculated at the 95-percent confidence level.

 21
   Of the $586,786 in overpayments detected by OIG in our sample, $142,754 was overpaid in FY 2004.
 The remaining $440,032 was overpaid in other years.


 Overpayments in SSA’s Disability Programs (A-01-04-24065)                                      F-10
                        Table F-10: Sample Results and Projections
               Estimated Beneficiaries with Overpayments Due to OIG’s Review
                                Stratum A Four        Stratum B Other
                                                                             Total
                              Diagnosis Groups Diagnosis Groups
Population size                        4,830,214           4,066,283         8,896,497
Sample size                                   832                700             1,532
                                     Attribute Projections
Sample cases                                    8                 10                18
Point estimate                             46,444             58,090           104,534
Projection lower limit                                                          56,511
Projection upper limit                                                         152,558
 Note: All projections were calculated at the 95-percent confidence level.


                       Table F-11: Sample Results and Projections
     Estimated Beneficiaries with Overpayments Detected by SSA’s Normal Processes
                               Stratum A Four       Stratum B Other
                                                                           Total
                             Diagnosis Groups Diagnosis Groups
Population size                      4,830,214           4,066,283        8,896,497
Sample size                                832                 700            1,532
                                   Attribute Projections
Sample cases 22                              63                 55               118
Point estimate                         365,749             319,494          685,243
Projection lower limit                                                      566,396
Projection upper limit                                                      804,090
 Note: All projections were calculated at the 95-percent confidence level.


                        Table F-12: Sample Results and Projections
             Estimated Overpayments SSA Assessed after FY 2004 for the Period
                          October 2003 through September 2004
                               Stratum A Four        Stratum B Other
                                                                            Total
                             Diagnosis Groups       Diagnosis Groups
Population size                     4,830,214             4,066,283         8,896,497
Sample size                               832                   700             1,532
                                     Dollar Projections
Sample results                        $85,756               $91,594          $177,350
Point estimate                  $497,858,111           $532,066,973    $1,029,925,084
Projection lower limit                                                   $607,477,569
Projection upper limit                                                 $1,452,372,599
 Note: All projections were calculated at the 95-percent confidence level.


 22
   One beneficiary in Stratum B had both an overpayment identified by SSA’s normal processes and an
 overpayment identified by the OIG’s review. Although the overpayment dollars are in the appropriate
 categories, we did not include this case in Table F-11 because the case was included in Table F-10.


 Overpayments in SSA’s Disability Programs (A-01-04-24065)                                        F-11
                          Table F-13: Sample Results and Projections
            Estimated Payments Stopped to Ineligible Beneficiaries for 12-Months
                            Based on Last Monthly Payment Issued
                                 Stratum A Four      Stratum B Other
                                                                                 Total
                                Diagnosis Groups Diagnosis Groups
Population size                       4,830,214           4,066,283              8,896,497
Sample size                                 832                 700                  1,532
          Dollar Projections – Potential Payments Stopped to Ineligible Beneficiaries
                              Based on SSA’s Normal Processes
Sample results                         $419,564            $789,023            $1,208,587
Point estimate                  $2,435,799,590       $4,583,413,586        $7,019,213,176
Projection lower limit                                                     $5,755,848,109
Projection upper limit                                                     $8,282,578,244
 Dollar Projections – Potential Payments to Ineligible Beneficiaries Based on OIG’s Review
Sample results 23                      $149,081            $220,081               $369,162
Point estimate                    $865,495,393       $1,278,446,346        $2,143,941,739
Projection lower limit                                                     $1,478,812,456
Projection upper limit                                                     $2,809,071,023
    Total Estimated Potential Payments Stopped/Not Stopped to Ineligible Beneficiaries
                                 $3,301,294,983      $5,861,859,932         $9,163,154,915
 Note: All projections were calculated at the 95-percent confidence level.


                         Table F-14: Sample Results and Projections
            Estimated Ineligible Beneficiaries Whose Payments Should be Stopped
                                 Stratum A Four       Stratum B Other
                                                                             Total
                                Diagnosis Groups Diagnosis Groups
Population size                        4,830,214           4,066,283         8,896,497
Sample size                                   832                700             1,532
                                     Attribute Projections
Sample cases                                   78                122               200
Point estimate                           452,833             708,695         1,161,528
Projection lower limit                                                       1,012,409
Projection upper limit                                                       1,310,646
 Note: All projections were calculated at the 95-percent confidence level.




 23
   Of the $369,162 in payments stopped in our sample because of OIG’s review, $59,432 would have
 been paid in FY 2004. The remaining $309,730 would have been paid after FY 2004.


 Overpayments in SSA’s Disability Programs (A-01-04-24065)                                         F-12
                      Table F-15: Sample Results and Projections
   Estimated Payments Stopped to Ineligible Beneficiaries for 12-Months Based on Last
              Monthly Payment if Benefit Payments Resumed in April 2006
              for Beneficiaries Placed in Suspense Based on OIG’s Review
                                    Stratum A Four           Stratum B Other
                                                                                                  Total
                                   Diagnosis Groups         Diagnosis Groups
Population size                           4,830,214                4,066,283                      8,896,497
Sample size                                      832                         700                      1,532
              Dollar Projections – Payments Stopped to Ineligible Beneficiaries
                              Based on SSA’s Normal Processes
Sample results                       $419,564            $789,023             $1,208,587
Point estimate                 $2,435,799,590      $4,583,413,586         $7,019,213,176
Projection lower limit                                                    $5,755,848,109
Projection upper limit                                                    $8,282,578,244
      Dollar Projections – Payments to Ineligible Beneficiaries Based on OIG’s Review
Sample results                            $146,666                  $220,081                      $366,747
Point estimate                       $851,475,001            $1,278,446,346               $2,129,921,347
Projection lower limit                                                                    $1,467,348,308
Projection upper limit                                                                    $2,792,494,386
          Total Estimated Payments Stopped/Not Stopped to Ineligible Beneficiaries
                                    $3,287,274,591            $5,861,859,932               $9,149,134,523
 Note: All projections were calculated at the 95-percent confidence level.


                 Table F-16: Summary of Estimated Overpayments and
                      Payments Stopped to Ineligible Beneficiaries
                                                                   Dollars                           Percent
Estimated Overpayments Identified by SSA’s Normal Processes      $1.9 billion                           37%
Estimated Overpayments Identified due to OIG’s Review            $3.2 billion                           63%
 Total Estimated Overpayments Identified Between
 October 2003 and November 2005 Based on Conditions that        $5.1 billion                              100%
 Existed in October 2003 or Earlier in Sample (From Table F-7)
Estimated Payments Stopped to Ineligible Beneficiaries due to
SSA’s Normal Processes                                                             $7.0 billion           77%
Estimated Payments Not Stopped to Ineligible Beneficiaries due to
OIG’s Review                                                                       $2.1 billion           23%
 Total Estimated Annual Payments Stopped/Not Stopped to
 Ineligible Beneficiaries Based on Sample (From Table F-13)                    $9.1 billion               100%




 Overpayments in SSA’s Disability Programs (A-01-04-24065)                                                 F-13
 Table F-17: Analysis of Four Diagnosis Groups Based on Cases in Which OIG Developed
         Information SSA Did Not Already Have—Sample Results and Projections of
               Overpayments and Potential Payments to Ineligible Beneficiaries
                              Stratum A Four         Stratum B Other
                                                                               Total
                             Diagnosis Groups       Diagnosis Groups
Population size                    4,830,214              4,066,283            8,896,497
Sample size                              832                    700                1,532
                                     Dollar Projections
Sample results                      $189,846               $160,600             $350,446
Point estimate                $1,102,159,624           $932,923,823      $2,035,083,447
Projection lower limit                                                   $1,143,137,823
Projection upper limit                                                   $2,927,029,071
 Note: All projections were calculated at the 95-percent confidence level.




 Overpayments in SSA’s Disability Programs (A-01-04-24065)                          F-14
  To calculate a statistically valid overpayment rate for SSA’s disability programs, the total
  amount of overpayments made in a given year should be compared to the total
  payments issued during that same year. However, overpayments made in a year—
  such as FY 2004—may not be identified until FY 2005 or beyond. 24 Because of this
  long span of time, the complexity of SSA’s programs, limited data, and SSA’s reliance
  on others to report changes that impact eligibility, we calculated several rates described
  below. These overpayment rates were developed on the basis that—for any medical or
  non-medical reason—the Agency assessed an overpayment, would have assessed an
  overpayment, or would not have issued a payment.

  Table F-18 shows that the overpayment rate for FY 2004 was about 3.2 percent of
  benefits paid. This rate is based on our sample cases and represents the amount of
  overpayments assessed for FY 2004 due to SSA’s normal processes and OIG’s
  review—which were detected during our review period of October 2003 and
  November 2005—and the amount of payments not issued to ineligible beneficiaries in
  FY 2004 as a result of our review. This total was compared to the amount of benefits
  paid to our sampled beneficiaries in FY 2004.

                 Table F-18: Overpayment Rate Based on Sample Cases with
               Overpayments and Payments Not Issued to Ineligible Beneficiaries
Overpayments detected by SSA in sample for FY 2004                                               $222,289
Overpayments detected by OIG in sample for FY 2004                                               $142,754
Payments not issued for FY 2004 to ineligible beneficiaries due to the OIG’s review               $59,432
 Total                                                                                           $424,475
Benefits paid in October 2003                                                                 $1,096,118
 Annual benefits paid in FY 2004 for sample (October 2003 benefit multiplied by 12)          $13,153,421
 Overpayment Rate ($424,475/$13,153,421) 25                                                           3.2%

  We also developed a second rate of 3.6 percent shown in Table F-19. This rate
  represents the amount of overpayments assessed by SSA for FY 2004 plus the
  estimated overpayments for FY 2004 that were not detected by the Agency and the
  estimated payments issued to ineligible beneficiaries in FY 2004 as a result of our
  review. These amounts were compared to the total DI and SSI payments made in
  FY 2004.




  24
    Within our sample of 1,532 cases, a period of 1 month up to 14 years elapsed before SSA identified a
  benefit as having been overpaid.
  25
    By excluding the $59,432 in payments stopped to ineligible beneficiaries for FY 2004 due to the OIG’s
  review, the 3.2 percent decreases to 2.8 percent.



  Overpayments in SSA’s Disability Programs (A-01-04-24065)                                           F-15
    Table F-19: Estimated Overpayment Rate Based on Overpayments and Payments to
             Ineligible Beneficiaries in FY 2004 for SSA’s DI and SSI Programs
Overpayments assessed by SSA in FY 2004 for its DI and SSI programs 26          $2.9 billion
                                                       27
Estimated overpayments detected by OIG for FY 2004                              $0.8 billion
                                                                           27
Estimated payments to ineligible beneficiaries detected by OIG for FY 2004      $0.3 billion
 Total                                                                         $4.0 billion
DI benefits paid in FY 2004 28                                                               $75.2 billion
SSI benefits paid in FY 2004 29                                                              $35.2 billion
 Total                                                                                     $110.4 billion
 Overpayment Rate ($4.0 billion/$110.4 billion)                                                      3.6%

 Although we believe that the overpayment rate is between 3.2 and 3.6 percent of
 benefits paid, the rate could be as high as 5.2 percent, as shown in Table F-20. This
 rate represents the percentage of benefits the Agency would not have paid if it had
 perfect knowledge of all conditions affecting eligibility at the time the payments were
 issued. The rate was calculated using the amounts used to develop the 3.6 percent,
 replacing the $0.3 billion in estimated payments issued to ineligible beneficiaries in
 FY 2004 with the estimate of annual payments to ineligible beneficiaries ($2.0 billion)
 based on our sample cases where SSA stopped benefits during our review due to
 medical CDRs, income, prison/fugitive status, failure to cooperate, inability to locate,
 etc. If SSA was able to identify all issues impacting benefits as soon as they occurred,
 the Agency would have likely stopped these benefits sooner.



 26
   SSA, Report on Receivables Due From the Public, Fiscal Year 2004, pages 113, 122, and 131. The
 SSI overpayments relate to disabled individuals, as well as individuals who became eligible for SSI based
 on age (65 or older). About 1.2 million individuals received SSI based on age and the average payment
 was $342—compared to about 5.6 million individuals receiving SSI based on disability and an average
 payment of $433 (SSA, Annual Statistical Supplement, 2004). These overpayments were identified
 during FY 2004. However, the overpayments may have occurred during periods prior to FY 2004.
 In Table F-7, we estimated that SSA identified $1.9 billion in overpayments during our period of review—
 October 2003 through November 2005—for our sample population representing 80 percent of all disabled
 beneficiaries. Assuming similar findings in the remaining 20 percent of disabled beneficiaries, our
 projection would increase to about $2.4 billion, and the upper and lower limits of our projection would
 adjust accordingly. Therefore, the $2.9 billion SSA reported would fall within the range of these adjusted
 upper and lower limits—and our estimate of $1.9 billion is a reasonable proxy for the amount of
 overpayments identified by SSA in its disability programs.
 27
   The estimates were $829.1 million and $345.2 million—and we rounded down to $0.8 billion and
 $0.3 billion in the Table. The OIG estimates are conservative, since our sample was only based on a
 population of 8.9 million disability beneficiaries—and does not include the 2.2 million beneficiaries
 (20 percent) we excluded from our original data file of 11.1 million beneficiaries.
 28
      SSA, FY 2004 Performance and Accountability Report, page 169, November 2004.
 29
   SSA, FY 2004 Performance and Accountability Report, page 169, November 2004. SSI payments in
 FY 2004 include payments to disabled individuals, as well as individuals who became eligible for SSI
 based on age (65 or older).


 Overpayments in SSA’s Disability Programs (A-01-04-24065)                                               F-16
          Table F-20: Estimated Overpayment Rate Based on Overpayments and
        Annual Payments to Ineligible Beneficiaries for SSA’s DI and SSI Programs
Overpayments assessed by SSA in FY 2004 for its DI and SSI programs 30         $2.9 billion
                                                       31
Estimated overpayments detected by OIG for FY 2004                             $0.8 billion
                                                                      32
Estimated annual payments to ineligible beneficiaries detected by OIG          $2.0 billion
 Total                                                                        $5.7 billion
DI benefits paid in FY 2004                                                                   $75.2 billion
SSI benefits paid in FY 2004                                                                  $35.2 billion
 Total                                                                                      $110.4 billion
 Overpayment Rate 33 ($5.7 billion/$110.4 billion)                                                    5.2%


 30
   SSA, Report on Receivables Due From the Public, Fiscal Year 2004, pages 113, 122, and 131. The
 SSI overpayments relate to disabled individuals, as well as individuals who became eligible for SSI based
 on age (65 or older). About 1.2 million individuals received SSI based on age and the average payment
 was $342—compared to about 5.6 million individuals receiving SSI based on disability and an average
 payment of $433 (SSA, Annual Statistical Supplement, 2004). These overpayments were identified
 during FY 2004. However, the overpayments may have occurred during periods prior to FY 2004.
 In Table F-7, we estimated that SSA identified $1.9 billion in overpayments during our period of review—
 October 2003 through November 2005—for our sample population representing 80 percent of all disabled
 beneficiaries. Assuming similar findings in the remaining 20 percent of disabled beneficiaries, our
 projection would increase to about $2.4 billion, and the upper and lower limits of our projection would
 adjust accordingly. Therefore, the $2.9 billion SSA reported would fall within the range of these adjusted
 upper and lower limits—and the $1.9 billion is a reasonable estimate for the amount of overpayments
 identified by SSA in its disability programs.
 31
   The OIG estimates are conservative since our sample was only based on a population of 8.9 million
 disability beneficiaries—and does not include the 2.2 million beneficiaries (20 percent) we excluded from
 our original data file of 11.1 million beneficiaries.
 32
    This estimate represents the amount of benefits SSA paid over a 12-month period by not stopping
 payments to individuals no longer eligible for benefits. This estimate was based on sample cases
 identified during our review—not SSA’s normal processes. Once we identified a case, SSA made the
 determination that the individual was no longer eligible for benefits and stopped the benefit payments
 during our review. Our estimates of payments to ineligible beneficiaries were calculated by multiplying
 the amount of the October 2003 benefit by 12 months. (If we had used the last payment received instead
 of the October 2003 payment, our estimate of $2.0 billion would have increased to $2.1 billion—as
 reported in Table F-15—and the rate would increase from 5.2 percent to 5.3 percent.) The $0.3 billion
 from Table F-19 is part of the $2.0 billion in Table F-20. These estimates are based on our population of
 8.9 million beneficiaries, whereas the $2.9 billion in overpayments and $110 billion in DI and SSI paid are
 based on all disabled beneficiaries. Any overpayments/payments to ineligible beneficiaries that occurred
 to individuals outside our population and undetected by SSA were excluded from the rate. For the
 individuals paid benefits in October 2003, but excluded from our population, we did not estimate any
 overpayments or payments to ineligible beneficiaries. Page F-1 of this report has a description of the
 adjustments made to our population prior to selecting the sample.
 33
   We looked at the distribution of cases with overpayments identified by SSA, and determined that
 73 percent were detected within 25 months. Based on this analysis, 5 cases with overpayments identified
 by the OIG may have been eventually identified by SSA because they were detected within 25 months
 (as shown in the charts on page 5 of this report). If these 5 cases were removed from the estimates in
 Table F-20, the estimated overpayments detected by OIG for FY 2004 would decrease to $0.7 billion, and
 the estimated annual payments to ineligible beneficiaries detected by OIG would decrease to $1.9 billion.
 Therefore, the rate would decrease from 5.2 percent to 5.0 percent ($5.5 billion/$110.4 billion).


 Overpayments in SSA’s Disability Programs (A-01-04-24065)                                             F-17
                                                                                      Appendix G

 Reasons Why Sampled Beneficiaries Were
 Overpaid or Became Ineligible for Payments
 Overpayments were assessed and payments were stopped to ineligible beneficiaries in
 our sample cases for several reasons in our review of 1,532 disabled beneficiaries, as
 shown in Tables G-1 and G-2 below.

                      Table G-1: Reasons for Overpayments in Sampled Cases
                         Identified by SSA’s            Identified Due to
                                                                                     Total
  Reason for              Normal Processes                OIG’s Review
                                                                                    Number       Total Over-
Overpayments in         Number                        Number
                                      Over-                         Over-             of          payments
    Sample                of                             of
                                    payments                     payments           People 1
                        People                        People
Income/Work
                           94         $252,151             12       $534,082           105       $786,233
Activity
Prisoner/Fugitive            2           $7,186             3        $32,110              5       $39,296
SSI Eligibility Not
                             8          $30,724             1         $7,831              9       $38,555
Met
Incorrect
                             5          $30,822             0              $0             5       $30,822
Computation
Payments After
                             2           $9,141             0              $0             2        $9,141
Death 2
Inability to Locate          0                $0            1         $7,904              1        $7,904
Not Cooperating              0                $0            1         $4,859              1        $4,859
Duplicate
                             7           $3,163             0              $0             7        $3,163
Payments
  Total                   118          $333,187            18      $586,786            135       $919,973




 1
   Five beneficiaries had multiple overpayments identified by the Social Security Administration’s (SSA)
 normal processes that fell into more than one category. Also, one beneficiary had overpayments
 identified by SSA’s normal processes and by the Office of the Inspector General’s (OIG) review. These
 beneficiaries are included in the category with the higher dollar amount, but the dollars for each case are
 in the appropriate category.
 2
   Two beneficiaries died prior to October 2003 but SSA was not notified until after October and was
 therefore unable to prevent these payments from being issued after death. Therefore, these
 2 beneficiaries were in current payment status when we obtained our data file and selected our sample.
 Additionally, 74 beneficiaries died during our review—between October 2003 and November 2005. In
 total, 76 beneficiaries in our sample died.



 Overpayments in SSA’s Disability Programs (A-01-04-24065)                                               G-1
            Table G-2: Reasons for Payments Were Stopped to Ineligible Beneficiaries
                                      in Sampled Cases
                          Identified by SSA’s          Identified Due to                    Total
                           Normal Processes              OIG’s Review        Total        12 Month
   Reason for
                                                                            Number       Estimate of
 Beneficiaries in        Number      12-Months        Number   12-Months      of        Payments to
    Sample                 of            of             of         of       People        Ineligible
                         People      Payments         People   Payments                 Beneficiaries
Death 3                     75         $780,696          0             $0      75            $780,696
Income/Work
                            44         $197,816         16       $161,743      60            $359,559
Activity
Medical
                            19         $141,972         12        $89,075      31            $231,047
Improvement
Prisoner/Fugitive             7         $38,399          5        $35,471      12             $73,870
Not Cooperating               4         $28,632          3        $18,725       7             $47,357
Inability to Locate           0              $0          4        $34,886       4             $34,886
SSI Eligibility Not
                              5         $13,350          2        $13,716       7             $27,066
Met
Voluntary
                              1             $342         2        $15,546       3             $15,888
Termination
OASDI Entitlement
                              1           $7,380         0             $0       1               $7,380
Not Met
  Total                    156       $1,208,587         44       $369,162     200          $1,577,749

 INCOME AND WORK ACTIVITY
 Individuals may no longer be entitled to disability benefits if their impairments improve or
 they demonstrate their ability to engage in substantial gainful activity (SGA) by working.
 For this reason, SSA conducts medical or work-related continuing disability reviews
 (CDR) to determine whether beneficiaries continue to be disabled and entitled to
 benefits. Because an individual’s entitlement to benefits is generally based on the
 determination that he or she does not have the ability to engage in SGA, SSA must
 perform a CDR when there is an indication that the beneficiary has returned to work. 4

 Although disabled Title II beneficiaries are required to report work activity, individuals
 often fail to report their income. Consequently, SSA developed the CDR Enforcement
 Operation. This enforcement process compares earnings reported on the Master


 3
  Of the 1,532 sample cases, 76 beneficiaries died. However, we only counted payments to ineligible
 beneficiaries for 75 of the 76 beneficiaries during our review period of October 2003 through
 November 2005. The remaining beneficiary appropriately received payments through November 2005
 and payments to ineligible beneficiaries would not start until December—which was beyond our audit
 period.
 4
     20 C.F.R. §§ 404.1590(b)(5) and 416.990(b)(5).


 Overpayments in SSA’s Disability Programs (A-01-04-24065)                                        G-2
Earnings File to the benefit rolls to alert the Agency of disabled beneficiaries with
potentially unevaluated substantial earnings after disability onset.

Because of SSA’s limited resources and competing workloads, the Agency limits the
number of work-related CDRs that are performed as a result of earnings identified
through its enforcement process. Although earnings may be identified through
enforcements, SSA screens out cases for work-related CDRs if the earnings are below
the Agency's pre-defined "screen-out" amounts. Limiting work-related CDRs to
enforcement cases with higher earnings allows SSA to use its resources to develop only
those cases that the Agency believes are more likely to involve SGA.

THE MEDICAL IMPROVEMENT REVIEW STANDARD
Most disability claims are initially processed through a network of Social Security Field
Offices and State Disability Determination Services (DDS). Once SSA establishes an
individual is eligible for disability benefits under either the Disability Insurance or SSI
program, the Agency turns its efforts toward ensuring the individual continues to receive
benefits only as long as SSA eligibility criteria are met. For example, a CDR may show
the individual no longer meets SSA’s disability criteria or has demonstrated medical
improvement.

The current Medical Improvement Review Standard (MIRS) was implemented in 1984
through changes to the Social Security Act. 5 MIRS requires that before benefits can be
ceased, SSA must find medical improvement since the last medical decision and this
improvement must be related to the individual's ability to work. 6

Constitutional Due Process requirements oblige SSA to pay benefits until an individual
is found to be no longer disabled during a CDR and is notified, even if the medical
impairments improved at an earlier time. 7

FUGITIVES AND PRISONERS
SSI Provisions for Fugitives
An individual is ineligible for SSI payments for any month during which he/she is:
   • fleeing to avoid prosecution for a crime which is a felony (or in New Jersey, a
       high misdemeanor) under the laws of the place from which the person flees;
   • fleeing to avoid custody or confinement after conviction for a crime which is a
       felony (or in New Jersey, a high misdemeanor) under the laws of the place from
       which the person flees; or

5
    Social Security Disability Benefits Reform Act of 1984, Pub. L. No. 98-460.
6
    20 C.F.R. § 404.1594.
7
    SSA, POMS, DI 12027.005.



Overpayments in SSA’s Disability Programs (A-01-04-24065)                               G-3
      •    violating a condition of probation or parole imposed under Federal or State law. 8

SSA revised its application and redetermination forms on October 23, 2000 to ensure
that all potential SSI recipients are advised of the effect that fugitive status or
parole/probation violations have on eligibility for payments. These new forms solicit
specific information from individuals to determine whether fugitive ineligibility applies.

To identify SSI recipients who did not report their outstanding warrants to SSA, the
Agency—in partnership with the Office of the Inspector General—entered into
agreements with the United States Marshals Service, the National Crime Information
Center, the Federal Bureau of Investigations, and over 20 State and local law
enforcement agencies to obtain fugitive data.

Old-Age, Survivors, and Disability Insurance Provisions for Fugitives

Fugitive provisions for Old-Age, Survivors, and Disability Insurance (OASDI)
beneficiaries were implemented in January 2005. Generally, payment is prohibited for
any month in which a beneficiary has an unsatisfied warrant that has been outstanding
for more than 30 consecutive days for:
      •    a crime, or attempted crime, that is a felony or, in jurisdictions that do not classify
           crimes as felonies, a crime that is punishable by death or imprisonment for more
           than 1 year (regardless of the actual sentence imposed); or
      •    violation of a condition of Federal or State probation/parole. 9

For both SSI and OASDI benefits suspended due to fugitive status, the suspension will
end and benefits will resume in the month after the month the warrant has been
satisfied. Warrants are satisfied in one of three ways:
    (1) the subject is arrested; or
    (2) the subject surrenders to law enforcement; or
    (3) a judge dismisses, vacates, cancels, or otherwise voids the warrant.

Provisions for Prisoners

SSA is prohibited from making OASDI payments to individuals for any month during
which they are confined in a penal institution as a result of being convicted of a criminal
offense. 10 In addition, the Agency is prohibited from making monthly SSI payments to
individuals for any month throughout which they reside in a public institution, such as a
correctional facility. 11 Further, the Act permits Federal, State, or county and local
8
    Social Security Act § 1611(e)(4), 42 U.S.C. § 1382(e)(4).
9
    Social Security Act § 202(x)(1)(A)(iv) and (v), 42 U.S.C. § 402(x)(1)(A).
10
     Social Security Act § 202(x)(1)(A)(i) and (ii), 42 U.S.C. § 402(x)(1)(A)(i) and (ii).
11
     Social Security Act § 1611(e)(1)(A), 42 U.S.C. § 1382(e)(1)(A).


Overpayments in SSA’s Disability Programs (A-01-04-24065)                                      G-4
agencies to make available to SSA, upon written request, the name and Social Security
number (SSN) of any individual who is confined in a penal institution or a correctional
facility. 12

To determine whether prisoners are receiving OASDI or SSI payments, SSA negotiates
computer matching agreements or Memorandums of Understanding with Federal, State,
county, and local correctional agencies to obtain prisoner information. Depending upon
the individual agreement, the prisoner information is obtained in either a
computer-processable format or on paper reports and forwarded to either SSA’s field
offices or SSA’s central office. The information obtained by SSA includes the prisoner’s
name, SSN, date of birth, gender, and dates and place of confinement.

Prisoner information is matched against SSA’s recipient or beneficiary information. As
part of the computerized matching process, SSA passes the information through its
Enumeration Verification System (EVS). EVS matches each prisoner record to SSA’s
enumeration records to determine whether the prisoner is using the correct SSN. EVS
also tries to find the correct SSN for prisoners when the SSN submitted by the
correctional Agency is erroneous, invalid, or missing.

SSA also receives prisoner information on paper from local correctional agencies in
accordance with agreements established with those facilities. The information is
manually processed by SSA field office staff, who screen the prisoner information
received against SSA’s records.

The purpose of both manual screening and electronic matching is to identify prisoners
receiving benefits. If SSA identifies benefit payments issued under an SSN used by a
prisoner, an alert is issued for appropriate SSA staff to verify the beneficiary’s identity
and determine whether payments should be stopped.

FAILURE TO COOPERATE AND INABILITY TO LOCATE
When SSA and the State DDS conduct a CDR—or if there is a question about whether
a beneficiary continues to be eligible for disability benefits, the beneficiary has a
responsibility to cooperate with and to take any required action requested by the
Agency or DDS to complete the CDR. A beneficiary’s failure to cooperate, without good
cause, is a basis for the DDS to terminate Title II and/or Title XVI benefits when there is
not enough evidence to justify a continuance. A failure to cooperate does not apply if
there is enough evidence to make a determination to continue benefits. 13




12
     Social Security Act §§ 202(x)(3)(B)(i) and 1611(e)(1)(I)(i), 42 U.S.C. §§ 402 and 1382.
13
     SSA, POMS, DI 28075.005C.



Overpayments in SSA’s Disability Programs (A-01-04-24065)                                      G-5
Inability to locate is a basis for SSA to find cessation and to terminate Title II benefits.
For Title XVI cases, inability to locate is a basis to suspend but not to terminate SSI
payments until the recipient is located. 14 Eligibility for SSI payments is automatically
terminated after 12 consecutive months of benefit suspension for any reason, beginning
with the first month the recipient was no longer eligible for payments. 15

SSI ELIGIBILITY
Title XVI of the Social Security Act specifies who is eligible to receive SSI benefits, the
amount of cash payments, and the conditions under which payments can be made. 16
An individual who applies for SSI and meets the conditions in the law is eligible for
benefits.

Generally, the eligibility requirements for SSI are as follows:
  • Age 65 or older, blind or disabled; and
  • Reside in one of the 50 States, the District of Columbia, or the Northern Mariana
     Islands (except for a child of military parent(s) assigned to permanent duty
     anywhere outside the United States or certain students temporarily abroad); and
  • Citizen or national of the United States or an alien lawfully admitted for
     permanent residence in the United States or an alien permanently residing in the
     United States under color of law; and
  • Have income and resources within specified limits; and
  • Fugitive provisions (as described previously) do not apply; and
  • File an application for SSI benefits.

VOLUNTARY TERMINATION OF SSI PAYMENTS
A SSI recipient, his legal guardian, or his representative payee may terminate his
eligibility for benefits by filing a written request for termination, which shows an
understanding that such termination may extend to other benefits resulting from
eligibility for SSI payments. If a recipient has a representative payee, the Agency must
determine that no hardship would result if an eligible recipient were not covered by the
SSI program prior to stopping benefits. When such a request is filed, the recipient
ceases to be an eligible individual effective with the month following the month the
request is filed with SSA unless the recipient specifies some other month. Once SSA
stops paying benefits at the request of the recipient, legal guardian or representative
payee, eligibility can be reestablished only upon the filing of a new application. 17

14
     Id.
15
     42 U.S.C. § 1383(j) and 20 C.F.R. § 416.1335.
16
     Social Security Act § 1611(a) – (c), 42 U.S.C. § 1382(a) – (c).
17
     20 C.F.R. § 416.1333.



Overpayments in SSA’s Disability Programs (A-01-04-24065)                                G-6
PAYMENTS AFTER DEATH
In our sample of 1,532 disabled beneficiaries, 76 died during the period of our review.
SSA was notified of these deaths through its normal business processes and stopped
payments the same month it received notification. However, for 49 of these deceased
beneficiaries, the Agency issued payments for at least one month after death—either
due to untimely notification of death or the notification was received too late to stop
issuance of the payment. Within our sample, we found that the Agency recovered
$50,442 of the $55,924 in funds paid after death (90 percent).


                      Beneficiaries Paid After Death
              27 (35%)
            No Payments                                                5 (7%)
             After Death                                              3 or more
                                                                       months




                                                                         6 (8%)
                                                                        2 months



                38 (50%)
                1 month



SSA is working with State governments to improve the current paper-based process
under an initiative known as Electronic Death Registration (EDR). EDR would enable
SSA to receive verified death data within 24 hours of receipt in the State Bureau of Vital
Statistics and within 5 days of death. EDR would also improve the accuracy of SSA’s
death master file, which is shared with other Federal agencies.

There are contracts in place for EDR in 15 States and 2 cities (New York City and
Washington, D.C.); and by the end of Fiscal Year (FY) 2004 EDR had been
implemented in New Hampshire, South Dakota, Minnesota and Montana. SSA will
continue the nationwide expansion of EDR by awarding contracts to as many States as
funding allows in FYs 2005 and 2006.




Overpayments in SSA’s Disability Programs (A-01-04-24065)                              G-7
 SUMMARY OF PRIOR OIG REPORTS

                                Earnings and Work Activity
                             Report                                  Date Issued
Disabled SSI Recipients with Earnings (A-01-04-14085)                 April 2005
Disabled Title II Beneficiaries with Earnings Reported on the         July 2004
Master Earnings File (A-01-03-13019)
                                 Medical Improvement
                             Report                                  Date Issued
Continuing Disability Reviews for SSI Recipients Approved             June 2002
Based on Low Birth Weight (A-01-02-12031)
                     Failure to Cooperate and Inability to Locate
                             Report                                  Date Issued
Review of Entitlement Determination Procedures for Unlocated          July 1997
Title II Disabled Beneficiaries (A-06-95-00076)
                                        Fugitives
                             Report                                  Date Issued
Assessment of the SSI Fugitive Felon Project (A-01-03-23070)        September 2003
Screening Representative Payees for Fugitive Warrants                March 2003
(A-01-02-12032)
Identifying Representative Payees Who Had Their Own Benefits         October 2002
Suspended Under the Fugitive Provisions of Pub. L. No.104-193
(A-01-02-12073)
OASDI Benefits Paid to Fugitives (A-01-00-10014)                     August 2000
Identification of Fugitives Receiving SSI Payments                   August 2000
(A-01-98-61013)
                                        Prisoners
                             Report                                  Date Issued
SSA’s Prisoner Incentive Payment Program (A-01-04-24067)              July 2004
Follow-up on Prior OIG Prisoner Audits (A-01-02-12018)                July 2003
Effectiveness of SSA’s Procedures to Process Prisoner                 June 1997
Information, Suspend Payments and Collect Overpayments
(A-01-96-61083)
Effectiveness in Obtaining Records to Identify Prisoners              May 1996
(A-01-94-02004)




 Overpayments in SSA’s Disability Programs (A-01-04-24065)                          G-8
                                       SSI Eligibility
                              Report                                   Date Issued
Deeming of Income to Establish Initial Eligibility for SSI           September 2001
Recipients (A-05-99-21005)
The Adequacy of the Residency Verification Process for the              May 1997
Supplemental Security Income Program (A-06-96-62001)
Review of Asset Transfers for SSI Eligibility (A-09-95-01017)        September 1996
                                 Voluntary Termination
                                    No Prior OIG Work
                                  Payments After Death
                              Report                                   Date Issued
Follow-up Review of OASDI Benefits Paid to Deceased Auxiliary           June 2003
Beneficiaries (A-01-03-13037)
Congressional Response Report: SSA’s Efforts to Process                January 2003
Death Reports and Improve its Death Master File
(A-09-03-23067)
OASDI and SSI Payments to Deceased Beneficiaries and                   October 2002
Recipients (A-06-02-12012)
Controls Over SSA’s Processing of Death Records from the              February 2002
Department of Veterans Affairs (A-01-01-21038)
OASDI Benefits Paid to Deceased Auxiliary Beneficiaries                 June 2001
(A-01-00-20043)
Improving the Usefulness of SSA’s Death Master File                      July 2000
(A-09-98-61011)
 Generally, SSA agreed to the recommendations in the reports listed in the table above.
 Additionally, the Government Accountability Office has conducted some reviews in
 these areas.




 Overpayments in SSA’s Disability Programs (A-01-04-24065)                            G-9
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
